<html>
<title> - HEARING WITH ORGANIZATIONS TARGETED BY INTERNAL REVENUE SERVICE FOR THEIR PERSONAL BELIEFS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                  HEARING WITH ORGANIZATIONS TARGETED
                    BY INTERNAL REVENUE SERVICE FOR
                         THEIR PERSONAL BELIEFS

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2013

                               __________

                          Serial No. 113-FC08

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 
 
                        U.S. GOVERNMENT PUBLISHING OFFICE
21-123                         WASHINGTON : 2017
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7a1d0a153a190f090e121f160a5419151754">[email&#160;protected]</a>  


                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM MCDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, JR., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, JR., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of June 4, 2013 announcing the hearing..................     2

                               WITNESSES

Dianne Belsom, President, Laurens County Tea Party...............    13
John C. Eastman, Ph.D., Henry Salvatori Professor of Law and 
  Community Service, Chapman University School of Law; Chairman, 
  The Claremont Institute's Center for Constitutional 
  Jurisprudence; and Chairman of the Board, National Organization 
  for Marriage...................................................    17
Becky Gerritson, President, Wetumpka Tea Party...................    39
Karen L. Kenney, Ph.D., Marriage, Family Therapist, Personal 
  Development Center Associates, and Member, San Fernando Valley 
  Patriots.......................................................    28
Kevin S. Kookogey, President and Founder, Linchpins of Liberty: 
  An American Leadership Development Enterprise..................     7
Susan Martinek, President, Coalition for Life of Iowa............    34

 
                  HEARING WITH ORGANIZATIONS TARGETED
                    BY INTERNAL REVENUE SERVICE FOR
                         THEIR PERSONAL BELIEFS

                              ----------                              


                         TUESDAY, JUNE 4, 2013

                     U.S. House of Representatives,
                               Committee on Ways and Means,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
1100, Longworth House Office Building, Hon. Dave Camp [Chairman 
of the Committee] presiding.

    [The advisory announcing the hearing follows:]

ADVISORY

	FROM THE COMMITTEE ON WAYS AND MEANS 
CONTACT: (202) 225-3625 FOR IMMEDIATE RELEASE

Tuesday, May 28, 2013
No. FC-8

                  Ways and Means to Hold Hearing with

               Organizations Targeted by Internal Revenue

                   Service for Their Personal Beliefs

    Congressman Dave Camp (R-MI), Chairman of the Committee on Ways and 
Means, today announced that the Committee will hold a hearing featuring 
organizations targeted by the Internal Revenue Service (``IRS'') based 
on their personal beliefs. The hearing will take place on Tuesday, June 
4, 2013, in Room 1100 of the Longworth House Office Building, beginning 
at 10:00 a.m.

      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.

      

BACKGROUND:

      
    The Committee on Ways and Means has led a 2-year investigation into 
whether the IRS treated certain applicants for tax-exempt status 
differently on the basis of their personal beliefs. The agency now 
admits to the practice, and the Committee is continuing its work to 
determine how the practice was established and why it was allowed to 
continue.

      
    In announcing the hearing, Chairman Camp said, ``While we now know 
that the IRS began targeting individuals based on their personal 
beliefs 3 years ago, we still need to know who began this targeting and 
why, and we need to understand how individuals were affected by the 
IRS' abuse. This hearing will provide a voice to those Americans who 
wound up under the IRS' political microscope on the basis of their 
beliefs.''

      

FOCUS OF THE HEARING:

      
    The hearing will focus on organizations that were targeted as part 
of the Internal Revenue Service's practice of discriminating against 
applicants for tax-exempt status based on their personal beliefs.

      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
written comments for the hearing record must follow the appropriate 
link on the hearing page of the Committee website and complete the 
informational forms. From the Committee homepage, http://
waysandmeans.house.gov, select ``Hearings.'' Select the hearing for 
which you would like to submit, and click on the link entitled, ``Click 
here to provide a submission for the record.'' Once you have followed 
the online instructions, submit all requested information. ATTACH your 
submission as a Word document, in compliance with the formatting 
requirements listed below, by the close of business on Tuesday, June 
18, 2013. Finally, please note that due to the change in House mail 
policy, the U.S. Capitol Police will refuse sealed-package deliveries 
to all House Office Buildings. For questions, or if you encounter 
technical problems, please call (202) 225-3625 or (202) 225-5522.

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons and/
or organizations on whose behalf the witness appears. A supplemental 
sheet must accompany each submission listing the name, company, 
address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at: http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman CAMP. Good morning.
    The hearing will come to order. We will give the media a 
chance to leave.
    Good morning. Welcome. Thank you all for being with us 
today. Despite nearly 2 years of denials, last month the IRS 
finally admitted the truth. Three years ago, the agency began 
systematically targeting individuals based on their political 
beliefs.
    However, what the agency has yet to admit, and what we 
still need to find out, is just how widespread this activity 
was, who ordered it, and why it began in the first place. Now 
let's consider what we do know. In March of 2010, the IRS put 
together a target list that ensnared conservative groups and 
individuals based solely on their political beliefs.
    In May of 2011, the IRS started sending letters threatening 
donors to conservative-leaning nonprofits that they could be 
liable for gift taxes.
    In June of 2011, the Ways and Means Committee initiated an 
investigation into those letters and highlighted concerns that 
individual taxpayers might be targeted for their political 
beliefs.
    In June of 2011, the senior leadership in the Washington, 
D.C. office of the IRS also became aware that the IRS workers 
had been using lists to target groups with names like 
``liberty,'' ``Tea Party,'' ``patriots,'' ``9/12,'' or ``make 
America a better place to live.''
    In March of 2012, the Huffington Post published the 
confidential 2008 donor list of the National Organization for 
Marriage, a conservative tax-exempt organization.
    In July of 2012, the Administration through the Treasury 
Department was informed by the Treasury Inspector General of a 
TIGTA audit examining the targeting of groups by the IRS.
    In May of 2013, the public and Congress were finally told 
that this practice had occurred, but only after a scathing 
report by the Treasury Inspector General that resulted in 
senior IRS officials planting a question about the targeting 
activity before the report's release.
    And just this weekend, the Wall Street Journal reported 
that the IRS gift tax letters that launched this Committee's 
initial investigation was, in fact, the result of a 
conservative organization and its donors being targeted for 
their political beliefs.
    Those are the facts we know.
    We also know that Americans were affected by the culture of 
political intimidation and discrimination that was cultivated 
by this targeting. At its core, this investigation is about how 
and why the IRS was empowered and allowed to use a broken Tax 
Code to abuse individuals based on their beliefs, and seemingly 
only based on their beliefs.
    And who are these Americans? While their life stories are 
different, what they all share in common is that they are 
Americans who did what we ask people to do every day: Add their 
voice to the dialogue that defines our country. And for 
pursuing that passion, for simply exercising their First 
Amendment rights, their freedoms of association, expression, 
and religion, the IRS singled them out.
    Today's witnesses will help this Committee and the American 
people better understand just how far off track the IRS has 
gone. Their testimony will show that the IRS' practice of 
treating certain Americans differently on the basis of their 
beliefs was not limited to the discriminatory conduct revealed 
by the Treasury Inspector General for Tax Administration's 
report, which was released May 14th of this year. Victims 
include Tea Party and non-Tea Party groups, 501(c)(3) social 
welfare organizations and 501(c)(3) charitable organizations, 
including religious organizations. All the witnesses received 
onerous and intrusive questionnaires from the IRS agents across 
the country. Some even had their confidential information 
leaked by the IRS to the media, which can have an impact of 
chilling free speech. Information requests to some included 
questions that were not only irrelevant but also intimidating, 
not to mention a violation of privacy. Those requests included 
asking for the following: Copies of all activity on Facebook or 
Twitter; resumes of past or present employees; whether past or 
present employees or a member of their family plans to run for 
office in the future; a list of past or present board members 
or members of their family that volunteer at a tax-exempt 
organization; information on their interaction with the media; 
details regarding the group's relationship with the private 
taxpayer; and a list of donors.
    The invited witnesses are but a small sample of Americans 
who have been treated differently and discriminated against by 
their government because of their individual, deeply-held 
beliefs. There are many, many more.
    And, again, I want to thank personally the witnesses for 
being here with us today, for the time you have taken to travel 
here, and for sharing your stories and experiences.
    While we might not know why this happened, please be 
assured that learning firsthand from you about how the IRS used 
the Tax Code to intimidate and harass you will help us take the 
steps necessary to make sure it never happens again. And I will 
now recognize Ranking Member Levin for an opening statement.
    Mr. LEVIN. Thank you very much.
    At our first hearing and every day since, each of us on a 
bipartisan basis have condemned the actions within the IRS 
Exempt Organization Division and condemn the actions by the IRS 
leadership who failed to accurately and adequately inform 
Congress after they had all of the facts of what had occurred 
between 2010 and 2012.
    We have all said that the singling out by name was wrong. 
The President said it was outrageous. The delays of over 13 
months in processing applications were wrong. And the fact that 
the applications of some organizations have been pending for 
over 3 years is inexcusable. The inability to get clear 
guidance on how to measure political activity was wrong. And 
the burdensome questions and inquiries were totally 
inappropriate. The handling of these applications was gross 
mismanagement by the IRS Exempt Organization Division.
    That is why the day after the report was issued I called 
for Acting Commissioner Steve Miller and the Exempt 
Organization Division Director Lois Lerner to be replaced. 
Since our hearing, progress has been made to address the 
malfeasance that occurred within the IRS Exempt Organization 
Division and to assure that all the facts come to the surface 
and that all identified problems are corrected so that the 
confidence of the American people may be restored.
    Steve Miller resigned as the IRS Commissioner. The 
President appointed Daniel Werfel as the Acting IRS 
Commissioner. And Secretary Lew instructed him to immediately 
conduct a 30-day review and to implement the recommendations of 
the IG report. Lois Lerner, the Director of the Exempt 
Organization Division, was placed on administrative leave by 
Commissioner Werfel. Commissioner Werfel appointed David Fisher 
as the Chief Risk Officer. Mr. Fisher previously served as the 
Chief Administrative Officer and Chief Financial Officer at 
GAO. And yesterday, he appointed a new Deputy Commissioner and 
a Chief of Staff, both with significant managerial and 
administrative experience.
    To the individuals testifying before us, to each and all of 
you, to the organizations they represent, and all the others 
who are caught up in this malfeasance, you are owed an apology. 
We say to you that each of us is committed to doing our part to 
ensure this does not happen again. The IG's report includes a 
number of key facts that we should keep in mind today. The IG 
determined that the applications of 298 organizations were set 
aside for review. One-third of the applications that were set 
aside, 96, contained the name ``Tea Party,'' ``9/12,'' or 
``patriots,'' while the remaining 202 applications did not. The 
IRS released a list of 176 advocacy organizations that have 
been approved for tax-exempt status through May 9.
    The news organization Tax Analyst did an analysis of the 
list released by the IRS. Its conclusion as to the approved 
applicants states, ``These organizations are the following: 46 
with Tea Party, patriots or 9/12 in their name; 76 other 
conservative organizations; 48 nonconservative organizations; 
and 6 organizations about which we can make no determination.''
    This is not a Democratic or Republican issue. It should not 
be. This issue is a direct reflection on highly inappropriate 
actions within the IRS Exempt Organization Division and totally 
incompetent management within and over that division. The TIGTA 
report highlights more problems than the singling out by name. 
The report found that IRS employees were screening applications 
that had no indications of significant political activities 
while closing cases that did have such indication. To qualify 
for tax-exempt status as social welfare organizations the Tax 
Code provides that an organization must be operated exclusively 
for the promotion of social welfare. The regulations, however, 
state that an organization will qualify for tax-exempt status 
if operated primarily for social welfare purposes. Overall, the 
data indicate an emerging use of the ``social welfare'' 
designation under 501(c)(4) to engage in political activity; 
501(c)(4)s spent $92 million in the 2010 election. They spent 
$254 million in the 2012 election, the second largest category 
of organizations making political expenditures, equal to that 
of political parties.
    One recommendation--and I close with this--in the TIGTA 
report was that the IRS and the Department of Treasury include 
guidance on how to measure the primary activity of social 
welfare organizations be included for consideration in their 
priority guidance plan. We urge them to move with all 
deliberate speed to implement this recommendation.
    In closing, I want to again on behalf of all of us on the 
Democratic side, and I think on behalf of all of us, thank the 
witnesses for being here today and for discussing your 
experiences. Please be assured as you testify, please be 
assured that we take seriously our responsibility to ensure 
that Congress gets to the bottom of what happened, that those 
responsible are held accountable, and that safeguards are in 
place to ensure that this does not happen again.
    Thank you.
    Chairman CAMP. Thank you, Mr. Levin.
    Again, thank you all for being here today. And thank you 
for the courage of stepping into the spotlight and giving voice 
to the hundreds of individuals who are affected by this 
activity. The Committee has received each of your written 
statements, and they have been distributed. They will be made 
part of the formal hearing record. Each of you will be 
recognized for 5 minutes for your oral remarks.
    We have a lighting system here. The green light will go 
until you have 30 seconds remaining, then there will be a 
yellow light, then there will be a red light. After each of you 
give your oral statements, we will then move to questioning.
    And so the Members will each then have 5 minutes to 
question you, and they will be subject to the same lighting 
system. So if at times I am cutting them off, it is to make 
sure that every Member has an opportunity to have their 5 
minutes.
    Our first witness is Kevin Kookogey. He is the President 
and Founder of Linchpins of Liberty, a nonprofit dedicated to 
educating high school and college students about the Nation's 
founding documents. He is the father of six children and comes 
to us today from Franklin, Tennessee.
    Mr. Kookogey, you are now recognized for 5 minutes.

    STATEMENT OF KEVIN S. KOOKOGEY, PRESIDENT AND FOUNDER, 
   LINCHPINS OF LIBERTY: AN AMERICAN LEADERSHIP DEVELOPMENT 
                           ENTERPRISE

    Mr. KOOKOGEY. Thank you, Mr. Chairman----
    Chairman CAMP. Touch the microphone button, please.
    Mr. KOOKOGEY. Thank you, Mr. Chairman. Thank you to the 
honorable Members of this Committee.
    My name is Kevin Kookogey, and I am President and Founder 
of Linchpins of Liberty, which is an American leadership 
development enterprise. Our motto is to challenge the 
imagination of the rising generation. And we do this by 
mentoring high school and college students in conservative 
political philosophy. We aim to mentor high school and college 
students by teaching them about the great books and about the 
foundations of America's moral and constitutional order.
    Linchpins of Liberty is one of those little platoons 
described by Alexis de Tocqueville, a local institution 
intended to act as a check on the power of the State to 
moderate the despotism of the majority and to give people a 
taste for freedom and the skills to be free.
    We are committed to a literary education and moral 
convictions that will allow citizens to maintain civil order. 
We aim to develop the moral imagination through the teaching of 
history. And we believe that God is the measure of all things 
and that the soul is the essence of humanity.
    Linchpin students learn how the Greeks were unable to 
maintain freedom because of their pursuit of private gain at 
public expense and their squandering of resources on 
extravagance. From Cicero, we learn the necessity of the rule 
of law, and we discover that true law is right reason in 
agreement with nature, that virtue must not yield to power.
    Linchpins of Liberty is also inspired by Augustine, that 
great fourth century philosopher of freedom, who wrote that 
only in obedience to God do we find perfect liberty. We teach 
our students from George Washington's farewell address, where 
we discover that religion and morality are indispensable 
supports for political prosperity. From Montesquieu, we learn 
that positive law must conform to natural law, and that a 
republic can only be sustained by the virtue of its citizens.
    Linchpins of Liberty recognizes that the state is God 
ordained, necessary to protect against foreign enemies, and 
that there can be no freedom without the law. But there are 
limits to the authority of the State. The government cannot be 
a law unto itself, and when the State usurps its legitimate 
authority by interfering in the realms of speech, religion, 
conscience, family, association, and ideas, we have a duty as 
human beings to ourselves and our posterity to oppose and to 
protest the State's trespassing its limits.
    In order to raise money, I filed an application with the 
IRS in January of 2011 seeking to obtain 501(c)(3) status as an 
educational organization. As of today, I have been waiting for 
29 months without status. In the interim, I lost a $30,000 
launch grant from a reputable nonprofit whose Executive 
Director advised me that he had never seen such treatment of a 
501(c)(3) applicant in his 25 years of making grants.
    I also lost and continue to lose multiple thousands of my 
own money, and I had to cease any further official activity for 
fear the IRS would target me for further harassment. For 2\1/2\ 
years the IRS has unlawfully delayed and obstructed my 
application for determination of tax-exempt status by using 
unconstitutional criteria. The types of questions asked by the 
IRS included asking me to identify the political affiliation of 
my mentors and that I advise the IRS of my political position 
on virtually every issue of importance to me. For good measure, 
I was asked to identify those whom I train and that I inform 
the Federal Government in detail what I am teaching my 
students.
    Considering that the mission of my organization is devoted 
to mentoring young people, some of whom are minors, can you 
imagine the reaction of the students' parents were I to turn 
over the names of their children to the IRS? And to what end? 
Is it not conceivable that I would be sued? Would the IRS 
threaten to audit the parents of those students? Yet my failure 
to comply with this stunning inquiry would result in the denial 
of my application or subject me to perjury.
    Moreover, contrary to statements of Lois Lerner, the 
targeting of Linchpins was not merely the act of a few agents 
in Cincinnati. On December 31, 2011, after numerous and 
repeated calls to the IRS which went unreturned, I finally 
reached agent Ron Bell in Cincinnati. When I inquired of him as 
to why my application was taking so long, he said, ``We have 
been waiting on guidance from our superiors as to your 
organization and similar organizations. We have now received 
that guidance, and you will receive your answer on a first-in, 
first-out basis.''
    Although Linchpins of Liberty is a 501(c)(3) and not a 
(c)(4), like many of the organizations here today, we do share 
one common trait with them and that is our ideas. Linchpins of 
Liberty exists to defend the cause of ordered liberty. We 
reject the expansion of the State beyond its legitimate 
authority, and we jealously guard human liberty.
    I respectfully urge and appeal to this Committee today, 
which is a co-equal branch of the Federal Government, vested 
with authority and responsibility to check the power of the 
executive branch, I would ask that you act with courage and 
moral resolve for, in so doing, you will--the intent is that 
you will--sorry, I got my--my time was running there.
    Chairman CAMP. You may conclude.
    Mr. KOOKOGEY. Thank you. I would ask that you act with the 
moral resolve to check the power of the executive branch 
because in so doing you will protect, defend, and preserve 
human liberty for ourselves and for our posterity. Thank you.
    [The prepared statement of Mr. Kookogey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                       ________________
    
    Chairman CAMP. Thank you very much, Mr. Kookogey.
    Our next witness is Dianne Belsom, the President of the 
Laurens County Tea Party in South Carolina.
    Ms. Belsom, you are recognized for 5 minutes.

                  STATEMENT OF DIANNE BELSOM, 
              PRESIDENT, LAURENS COUNTY TEA PARTY

    Ms. BELSOM. Thank you. Thank you for having me today. My 
name is Dianne Belsom. I am the President of Laurens County Tea 
Party. Laurens County Tea Party is a social welfare 
organization that seeks to educate ourselves and our fellow 
citizens on various issues pertinent to living in a free 
country, and we also work to educate voters by vetting 
candidates and by holding candidate forums during election 
years. We typically meet once a month and hold an annual rally. 
We held our first Tax Day Tea Party Rally in April of 2009, and 
then formally organized and incorporated with the State of 
South Carolina in March of 2010.
    On July 22, 2010, we filed for 501(c)(4) status with the 
IRS and paid the application fee of $400. We received a letter 
on August 11, 2010, stating that if more information was needed 
to process our application we would be contacted within 
approximately 90 days. After hearing nothing, I called the IRS 
in the summer of 2011, which was a year after I filed, and was 
told our case was still pending. But in the meantime, we were 
still responsible for filing tax returns, which we have done.
    On November 14th, 2011, we received a letter from the IRS 
stating that we may be required to file a Form 990-N an e-
postcard. Nothing more was heard until September 6, 2012, when 
we received a communication from the IRS requesting extremely 
burdensome additional information, which includes the 
following: Provide a copy of our articles of incorporation, 
which we had sent with our initial application in 2010; 
information about all of our committees, including legislative, 
educational, and vetting, and how much time and resources are 
devoted to these activities. They sent about 20 pages copied 
from our website and wanted confirmation that these, in fact, 
were from our website. Then they wanted samples from any other 
social media sites, including Facebook. They asked for detailed 
information about all meetings, rallies, and events, with dates 
and names of speakers, agendas, any associated materials, and 
if a guest speaker made remarks concerning upcoming elections, 
and whether our organization took a view on anything expressed, 
and how much time or resources are devoted to these activities. 
They wanted to know how much time or resources were devoted to 
vetting candidates.
    The IRS noted that our website had a lot of videos of 
candidates running for local office. They wanted to know what 
offices the candidates were running for, which was stated in 
the videos; a list of all candidates for these offices; and an 
explanation for those who didn't participate; copies of any 
written materials, including invitations to the candidates, 
copies of any introductory statements made by us, and copies of 
all questions asked of the candidates, whether the interviews 
were edited, a list of which interviews were posted on our 
website, an explanation for any not posted, and the percentage 
of time and resources devoted to this.
    As regards a candidate forum we held, more questions were 
asked, including the date and elective offices for which it was 
held, a list of candidates and explanations for those who 
didn't participate, copies of opening remarks from us, who 
asked the questions, copies of all questions asked, copies of 
written materials, including invites to candidates and 
advertising, whether the videos posted were edited, and the 
percentage of time and resources devoted to this activity. Then 
they also asked for a list of expenses for the past 3 years, 
including any amounts expended in support of any candidate for 
Federal, State, or local public office, which I might add is 
zero.
    Since I was already aware that the IRS was targeting Tea 
Party groups, I immediately contacted the ACLJ, and they agreed 
to represent us at no charge. Nevertheless, in order to comply 
with this information request, it took hours of time, stress, 
and aggravation. By the end of December, we had filed the 
requested information with the IRS. Then, on January 31st, 
2013, we received a request for more information which 
included, again, a request for the articles of incorporation, 
copies of emails sent out on issues we deal with, plus copies 
from our Facebook group. Through emails sent out to our group 
members, I provided quite a few of those. I provided copies of 
free and paid ads placed in papers, pictures submitted to local 
papers, press releases, and materials for distribution. We 
complied with these demands on March 5th, 2013. It is now June 
4th, 2013, so nearly 3 years have passed and, to date, we have 
still heard nothing.
    I would like to note that our group is a small-time 
operation with very little money, and this represents a 
complete waste of time by the IRS in terms of any money they 
would collect if we were not tax-exempt. Furthermore, nearly 3 
years in waiting for an answer is totally unacceptable. The IRS 
needs to be fully investigated and held accountable for its 
incompetence, harassment, and targeting of conservative groups. 
Thank you.
    [The prepared statement of Ms. Belsom follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Chairman CAMP. Thank you, Ms. Belsom.
    Our next witness is Dr. John Eastman, Chairman of National 
Organization for Marriage and a Professor at Chapman University 
School of Law.
    And, Dr. Eastman, you are recognized for 5 minutes.

STATEMENT OF JOHN C. EASTMAN, PH.D., HENRY SALVATORI PROFESSOR 
OF LAW AND COMMUNITY SERVICE, CHAPMAN UNIVERSITY SCHOOL OF LAW; 
 CHAIRMAN, THE CLAREMONT INSTITUTE'S CENTER FOR CONSTITUTIONAL 
JURISPRUDENCE; AND CHAIRMAN OF THE BOARD, NATIONAL ORGANIZATION 
                          FOR MARRIAGE

    Mr. EASTMAN. Mr. Chairman, thank you very much. And to all 
Members of the Committee, thank you for taking these issues so 
seriously. I am the Chairman of the Center for Constitutional 
Jurisprudence, a public interest law firm affiliated with the 
Claremont Institute, and I am also on the Board of Directors of 
the Act Right Legal Foundation, which serves as co-counsel for 
True the Vote. The Act Right Legal Foundation filed a lawsuit 
just last week on their slow-walking by the IRS and their 
501(c)(4) status.
    But I am here today in my capacity as Chairman of the Board 
of the National Organization for Marriage. Because the 
egregious conduct taken against that organization, which had 
its 501(c)(4) status conferred back in 2008, kind of takes us 
to a different level.
    In March of 2012, the confidential portions of our 990 tax 
returns, including Schedule B, which is our list of major 
donors and their home addresses, appeared on the website of the 
Human Rights Campaign, our principal political opponent in the 
nationwide fight over traditional marriage. The copy of our tax 
returns and our list of donors that was posted there were 
redacted. Our computer forensic people were able to unlayer the 
redactions from that PDF file and discovered that the original 
document that was posted there had originated from within the 
IRS. It had internal IRS stamps that are placed on every 
document the IRS receives that are electronically filed with 
the IRS and placed on those documents by that computer system. 
We don't have copies of the documents with those IRS stamps on 
them; those only exist within the IRS. And yet this was posted 
on the website of the Human Rights Campaign.
    You can imagine our shock and disgust over this. We 
jealously guard our donors, as almost any other nonprofit does, 
particularly on the issues that we deal with, which are so 
contentious that our donors, once they are identified, are 
harassed and intimidated and chilled away from supporting the 
cause that we advance. This is unacceptable conduct in our 
democracy.
    We immediately requested an investigation from the 
Treasury's Inspector General for Tax Administration Office as 
well as the Department of Justice. The second request to the 
Department of Justice was filed because these are felonies that 
were committed against the National Organization for Marriage. 
It is a felony, punishable by a $5,000 fine and up to 5 years 
in Federal prison, for the illegal disclosure, the unauthorized 
disclosure of one's confidential tax returns.
    We are a nonprofit. But that part of our tax return is as 
confidential as your individual 1040 forms. The TIGTA initially 
investigated us to try to determine whether somebody from 
within our own ranks had disclosed our confidential tax 
returns. And when we pointed out we didn't have a copy of the 
version of our tax returns that had that IRS stamp on it, that 
was the last we heard of the investigation. That was last 
summer of 2012.
    We then began filing a series of Freedom of Information Act 
requests with TIGTA and with the IRS to try to ascertain some 
of the information that had been discovered during any 
investigation that had been had there. We were stonewalled in 
those Freedom of Information Act requests. The IRS told us that 
any documents they had would have been under the Inspector 
General's jurisdiction, so they couldn't disclose them to us. 
When we pointed out we didn't ask for what was over at TIGTA, 
we asked for what was in the files of the IRS, their second 
response to us was, ``Well, we've already answered your 
request; we don't answer things twice.''
    Most stunningly, on May 3rd of this year, in followup to a 
Privacy Act request, where we asked for the specific 
information that Federal law allows us to request when there 
has been an investigation into disclosure of our tax returns, 
the Inspector General's Office told us that the identity of the 
source of this felony against us was itself protected tax 
return information that they could not disclose to us. I ask 
you to think about the irony of that.
    There are a couple of things it seems to me that this 
Committee could look at to help cure this problem. First, 
clarify that it is not the case that the prohibition against 
disclosure of our tax returns shields the culprit who committed 
that felony.
    Second, we have no ability to bring a criminal prosecution 
for these felonies on our own, and yet the Department of 
Justice has not done so. There is a civil penalty provision 
that is available, but we can only bring a suit against the 
United States for $1 thousand per the one disclosure, not the 
hundreds of thousands of disclosures that were done by the 
Human Rights Campaign when they posted this on their website. I 
would like to see a clarification of that provision that would 
hold the people, the individual IRS official as well as their 
colluders that are nongovernment employees, civilly liable to 
the taxpayers whose tax returns they illegally disclosed.
    And, finally, I think because the investigation has yielded 
nothing of importance to us, I would ask this Committee to 
consider subpoenaing the folks at the Human Rights Campaign. 
Find out who posted it on the website, find out who introduced 
the redactions and hid the IRS information. Find out who 
received it from the IRS. And, most importantly, find out who 
from the IRS disclosed this information. The head of the Human 
Rights Campaign had recently been named the National Cochair of 
the Obama Reelection Campaign. This just smells, and I hope 
this Committee gets to the bottom of it. Thank you for allowing 
me to testify.
    [The prepared statement of Mr. Eastman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Chairman CAMP. Thank you, Dr. Eastman.
    Our next witness is Dr. Karen Kenney, member of the San 
Fernando Valley Patriots. Dr. Kenney is a licensed 
psychotherapist practicing in Southern California. And among 
her work, Dr. Kenney assists returning veterans who suffer from 
post-traumatic stress disorder.
    Dr. Kenney, you are recognized for 5 minutes.

     STATEMENT OF KAREN L. KENNEY, PH.D., MARRIAGE, FAMILY 
THERAPIST, PERSONAL DEVELOPMENT CENTER ASSOCIATES, AND MEMBER, 
                  SAN FERNANDO VALLEY PATRIOTS

    Ms. KENNEY. Thank you, Mr. Chairman.
    John Adams knew that facts are stubborn things. In this 
district, facts are hidden under the mantle of office. They get 
used as tools or weapons, but they wait for us. We must seek 
them with the lamp of truth and put them into words.
    But you and I speak different languages in this Republic. 
You speak the language of power, of pen, purse, and gavel. I 
speak American grassroots, the language of liberty, through 
providence, property, and civic virtue.
    We seldom speak together about the rule of law, unless it 
is ignored or violated. Now is such a time.
    I have a story that bridges the distance between my State 
of California and this Capitol. What I say here must be said 
here. Pilgrims brought to this continent a lamp of liberty, 
guided here by the pursuit of life within the words of Moses 
and Christ. They persevered for righteous freedom. We sit here 
in the shadows of Washington, Jefferson and Lincoln. We visit 
here memorials to those who fell in service to this country. 
They persevered for righteous power. The spirit of patriots 
living and dead grants me the right to be here. It is my duty 
as an American citizen to speak here today.
    In October 2010, the San Fernando Valley Patriots, a not-
for-profit corporation in California, applied with the Internal 
Revenue Service for a 501(c)(4) status as a tax-exempt social 
welfare organization. We were then and remain a Tea Party 
group, affiliated with the national Tea Party Patriots. We 
heard nothing until February 2012, when I received a packet 
from the IRS Exempt Organizations Office in Cincinnati, Ohio, 
which included a questionnaire with 35 items divided into 80 
sub-points of inquiry. A cover letter indicated that we had 20 
days to comply without penalty, including penalties of perjury 
for failure to answer all questions with the facts that are 
true, correct, and complete.
    Generally, the questions were a demand that read like the 
chill- ing words from the 1950s: ``Are you now or have you ever 
been . . . ?'' The IRS sought documentation of our meetings, 
rallies, events, or candidate forums that included video and 
audio transcriptions, notes, copies of all handouts, the 
political parties of speakers, and an issues list. The IRS 
sought identifying information on employees, data on volunteers 
and members, plus Employer Identification Numbers on businesses 
with which we associate. These are our donors. They have names: 
Mike, the printer, who gave us a discount on handbills; Dee, 
the beauty consultant, who donated posters for our tax day 
rallies; and Greg, the electrician, who made a stand for our 9/
11 banner out of pipes and wires.
    The IRS sought EINs and details on our association with 
tax-exempt organizations. These are our teachers. They have 
names: the Heritage Foundation, Freedom Works, and the National 
Center for Constitutional Studies, where we learn American 
history; the Tea Party Patriots, where we learn grassroots 
skills; and the West Valley Food Pantry, our charity.
    The IRS sought details of communications with our 
legislators. Even in Southern California, that is protected 
free speech.
    My personal favorite was question No. 33, which, in 
relation to protests, asked for a listing of our ``committed 
violations of local ordinances, breaches of public order or 
arrests,'' then requested details on how we conduct or promote 
illegal activities.
    I think the IRS needs to fix its labeling machine. We are 
the San Fernando Valley Patriots, not Occupy Oakland. I stopped 
the costly and exhausting IRS process in July 2012. We survive 
on my credit card and donations in our cake tin. Like patriots 
before us, we persevere.
    The voice of the Republic resides in our citizens, not in 
the tongue of government. More must grasp that self-evident 
truth. This dialogue is about the jackboot of tyranny upon the 
field of our founding documents. To whisper the letters I-R-S 
strikes a shrill note on Main Street, USA, but when this 
behemoth tramples upon America's grassroots, few hear the 
snapping sounds.
    Now more people listen, but few who know the truth speak. 
This moment reflects a reality of governance in America. This 
time we came to you. In time, you will come home to us. This 
time we came for truth. In time, the lies will fall.
    Vox populi, vox dei, the voice of the people is the voice 
of God, is irresistible but different in America. Our voice 
belongs to the free individual, not to the collective mob. Our 
voice is best heard when power kneels, then whispers to 
liberty, ``strength.'' And when liberty stands under heaven and 
shouts to power, ``freedom.''
    Thank you.
    [The prepared statement of Ms. Kenney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Chairman CAMP. Thank you, Dr. Kenney.
    Our next witness is Ms. Susan Martinek, President of the 
Coalition for Life of Iowa. Until her recent retirement, Ms. 
Martinek was Founder and Manager of Seams Easy, a clothing 
alteration company.
    Ms. Martinek, you are recognized for 5 minutes.

                 STATEMENT OF SUSAN MARTINEK, 
             PRESIDENT, COALITION FOR LIFE OF IOWA

    Ms. MARTINEK. Good morning. I am Sue Martinek, President of 
Coalition for Life of Iowa, based in Cedar Rapids, Iowa. 
Coalition for Life of Iowa is a grassroots, low-budget, public 
charity founded in 2004 to provide prayer, education, and 
related activities about the sanctity of life from conception 
to natural death. Throughout our history, we have organized and 
sponsored educational forums and engaged in peaceful, prayer 
activities.
    In 2008, we sought 501(c)(3) tax-exempt recognition from 
the IRS by filing a complete IRS Form 1023 application. I speak 
today so that what happened to us, the IRS' demonstrated 
harassment, improper questions, and intolerance toward our 
message, may not happen to others. The IRS' questions centered 
on our educational and potential political activities, our 
prayer groups, and our signage.
    On April 27, 2009, IRS Agent Ms. Richards, out of the 
Cincin- 
nati office, sent me a letter asking about our educational 
forums, whether we were trying to influence legislation or 
influence political campaigns. We had already answered ``no'' 
on the IRS Form 1023 application. I responded May 14th, 
answering all her questions fully. In the subsequent weeks, IRS 
Agent Richards contacted me by telephone a few times, asking 
more questions about our activities. Some questions I asked her 
she was unable to answer and would put me on hold and check 
with her superior or superiors.
    In June of 2009, Ms. Richards told me verbally that we 
needed to send in a letter with the entire board's signatures 
stating that, under penalty of perjury, we would not picket, 
protest, or organize groups to picket and protest outside of 
Planned Parenthood. Upon receiving such a letter, she indicated 
that the IRS would allow our application to go through.
    So we sent a followup letter to the IRS specifically 
requesting where in Form 1023 or elsewhere it stated that we 
could not protest at Planned Parenthood. The IRS never answered 
our question. Instead, the IRS continued questioning us.
    On June 22, 2009, IRS Agent Richards sent us additional 
written requests as follows: Please explain how all of your 
activities, including the prayer meetings held outside of 
Planned Parenthood, are considered educational, as defined 
under 501(c)(3). Organizations exempt under 501(c)(3) may 
present opinions with scientific or medical facts. Please 
explain in detail the activities at the prayer meetings. Also, 
please provide the percentage of time your organization spends 
on prayer groups as compared with the other activities of the 
organization. Please explain in detail the signs that are being 
held up outside of Planned Parenthood and explain how they are 
considered educational.
    When we met at our next board meeting, we were all 
disappointed with the IRS' requests. We had worked so hard to 
get the application correct. We had a local attorney skilled 
with this process helping us. We understood that we could hold 
up signs with educational information about abortion and the 
sanctity of life without the IRS questioning their validity.
    We never thought we would have to defend our prayer 
activities. As Christians, we knew we needed to pray for a 
better solution to unplanned pregnancy than abortion. Why not 
at the source?
    Personally, I wondered, who fights the IRS? What would the 
repercussions be? Would there even be a hope to win? Since we 
focused on educational forums and not picketing or protesting, 
some board members were willing to sign the requested letter. 
But others refused to sign a statement that unfairly restricted 
First Amendment rights.
    We had very little funds. One board member suggested we 
contact the Thomas More Society, a public interest law firm. 
They help the little guy--that was us--with legal problems. 
They took our case and found us an attorney that specializes in 
this area.
    Fortunately, with their help, and after we submitted a 
lengthy letter detailing the law and our constitutional rights, 
the IRS granted us tax-exempt status, just 1 week after our 
attorney, Sally Wagenmaker, sent in that letter to IRS Agent 
Richards. No more mention was made of any IRS-required board 
statement about protesting and picketing outside of Planned 
Parenthood.
    We were fortunate, but not all are. Our story has a happy 
ending. Donors can claim charitable tax deductions for their 
contributions. With their help, we can carry out our 
educational and religious activities to promote respect for 
human life, such as the March for Life and 40 Days for Life 
campaigns. Coalition for Life of Iowa seeks to save lives, help 
others, and improve our community. May our story of the IRS' 
overreaching spur reform of its practices, better treatment of 
our charitable institutions, and continued protection of First 
Amendment right freedoms. Thank you for letting me tell our 
story.
    [The prepared statement of Ms. Martinek follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Chairman CAMP. Thank you, Ms. Martinek.
    Our final witness is Becky Gerritson, President of the 
Wetumpka Tea Party in Alabama.
    Ms. Gerritson, you are recognized for 5 minutes.

                 STATEMENT OF BECKY GERRITSON, 
                 PRESIDENT, WETUMPKA TEA PARTY

    Ms. GERRITSON. Good morning. Thank you for inviting me to 
be here today. I would like to begin with a brief statement. I 
know that you are primarily interested in hearing about the 
abuses of the Internal Revenue Service. But I believe it is 
critically important that you understand just not what these 
abuses were but what exactly the IRS was trying to stifle.
    In order to paint a clear picture, I need to explain how 
the Wetumpka Tea Party came into being. My husband and I had 
never been involved in politics before 2008. We have always 
been patriotic and deeply proud of our country. We have always 
felt that the United States is the greatest country in the 
world.
    In September 2008, when we had our first $700 billion 
bailout, we, along with millions of Americans, were very 
concerned. That bailout was confirmation that our government 
was out of control. But just a few months later, in January 
2009, we learned that our government was going to spend another 
$787 billion. That money went to foreign nations, failing 
banks, and unproductive industries. We were worried, and we 
knew we had to do something to sound the alarm. We knew the 
government had gone far beyond its habitual deficit spending. 
The government was mortgaging America's future. And we knew 
that Washington wasn't going to stop by itself.
    In the spring of 2009, we learned that others were 
organizing Tea Party events around the Nation to educate and 
empower concerned citizens who believed their government was 
out of control. So we made our plans. My husband and I filled 
out a permit to meet at a local park in our small town. My 
daughter and I walked through neighborhoods handing out flyers 
for our April 15th event. When the day arrived, we were blown 
away by the large crowd. A few politicians came also, but they 
didn't speak. We wanted to give ordinary citizens the chance to 
speak their concerns.
    Our event had no party affiliation. I could not tell you if 
the attendees were Republicans, Democrats or Independents. It 
didn't matter. The only political notion expressed was one that 
we collectively felt, that our representative government had 
failed us. And that was the birth of the Wetumpka Tea Party. 
There are no dues, no price for membership. Our events are 
mostly educational. Whatever expenses are incurred are paid 
from donations--by donations and tee shirt sales.
    In Wetumpka, we are patriotic Americans. We peacefully 
assemble. We petition our government. We exercise the right to 
free speech. And we don't understand why the government tried 
to stop us. I am not here as a serf or a vassal. I am not 
begging my lords for mercy. I am a born-free American woman, 
wife, mother, and citizen. And I am telling my government that 
you have forgotten your place. It is not your responsibility to 
look out for my well-being and to monitor my speech. It is not 
your right to assert an agenda. Your post--the posts that you 
occupy exist to preserve American liberty. You have sworn to 
perform that duty, and you have faltered. The abuses I will 
discuss today occurred on your watch. And it is your 
responsibility to make sure it doesn't happen again.
    Here are the facts of my case. We applied for a 501(c)(4) 
in October 2010. Our $850 application fee was cashed 7 days 
later. We received a letter from Robert Choi dated November 2, 
2010, stating that our application and our user fee payment had 
been received. It also stated that we should be expecting to 
hear from someone within 90 days.
    However, the IRS did not initiate any contact with us for 
another 459 days. That was when I received a letter from the 
Cincinnati office, dated February 3rd, 2012. That letter stated 
that they could not process our application until we completed 
the enclosed questionnaire, which requested approximately 90 
pieces of additional information about our organization.
    The questionnaire stated that if the additional information 
was not returned by February 24th, our case would be closed. 
The demands for information in the questionnaire shocked me, as 
someone who loves liberty and the First Amendment. I was asked 
to hand over my donor list, including the amounts that they 
gave and the dates on which they gave them. The 501(c)(4) 
organizations do not have to disclose donor information. I knew 
that. Why didn't they?
    Among the demands that I found alarming and inappropri- 
ate were: They wanted me to identify all of my volunteers. They 
wanted to know if any of our donors or volunteers had run or 
would be running for office in the near future. Remember, this 
was the 2012 election cycle. They wanted us to identify the 
office they would be running for. They wanted us to provide 
detailed contents of all speeches ever given, the names of our 
speakers, and their credentials. They wanted copies of written 
communications and contents of all other forms of 
communications to any legislative body, including my own 
Representative.
    I was very uncomfortable with these questions, as you can 
imagine, and my husband and I discussed forfeiting our 
application. However, within days of reading through these 
questions, we knew we were being targeted because fellow Tea 
Party organizers across this Nation were getting the same types 
of letters and questionnaires. That was when we decided to seek 
legal counsel.
    On March 6th, 2012, we retained the counsel of the American 
Center for Law and Justice, and they represented us in this 
matter. Two weeks later, I received a letter from Lois Lerner, 
dated March 16th, 2012, asking that I provide the previously 
requested information. Four months later, we received a letter, 
dated July 9, 2012, stating that we had been approved to 
receive our tax exemption. This was 635 days after we applied.
    In conclusion, the Wetumpka Tea Party filled out a complete 
application. Our organization fell within the boundaries of 
receiving a 501(c)(4) status, yet our application was singled 
out solely because we had ``Tea Party'' in our name. Government 
agents made invasive and excessive demands for information they 
were not entitled to.
    Congressman Camp and Members of this Committee, this was 
not an accident. This was a willful act of intimidation to 
discourage a point of view. What the government did to our 
little group in Wetumpka, Alabama, is un-American. It wasn't a 
matter of firing or arresting individuals. The individuals who 
sought to intimidate us were acting as they thought they should 
in a government culture that has little respect for its 
citizens. Many of the agents and agencies of the Federal 
Government do not understand that they are servants of the 
people. They think they are our masters, and they are mistaken.
    I am not interested in scoring political points. I want to 
protect and preserve the America that I grew up in, the America 
that people crossed oceans and risked their lives to become a 
part of. And I am terrified it is slipping away. Thank you.
    [The prepared statement of Ms. Gerritson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Chairman CAMP. Thank you very much. Thank you, Ms. 
Gerritson.
    Thank you all for your testimony. We will now move to the 
question-and-answer period of the hearing. And I will begin.
    On May 17th, we heard from the Inspector General that the 
IRS had targeted certain Americans on the basis of their 
personal beliefs, that they were subject to extraordinary 
delays and inappropriate, at best, and unlawful, at worst, 
questions. I know, for example, Mr. Kookogey, and Ms. Kenney, 
you were both asked to provide a list of all the issues that 
are important to your organization and to indicate your 
position on each issue.
    Ms. Martinek, you were asked about prayer meetings, 
including how they are considered educational as defined under 
501(c)(3), and you were asked to explain in detail the 
activities at these prayer meetings, and the percentage of time 
your organization spends on prayer meetings.
    I would like to ask the panel to elaborate. Are the 
Inspector General's report findings consistent with your 
experience of targeting, delay, and intimidation?
    Mr. Kookogey, I will start with you.
    Mr. KOOKOGEY. Yes, I would say that the Inspector General's 
report findings are consistent. I don't think the Inspector 
General's report, however, is deep enough yet. I think we have 
more evidence among us, and not only among this panel but among 
other parties and organizations, that goes much deeper. I think 
the IG has just scratched the surface.
    Chairman CAMP. All right.
    Ms. Belsom.
    Ms. BELSOM. I didn't actually read the Inspector General's 
report. So what exactly was your question?
    Chairman CAMP. Well, just if those things I mentioned, were 
those consistent with your experience?
    Ms. BELSOM. You know, I think that this certainly seemed 
like a gross overreach of the IRS.
    Chairman CAMP. All right. Thank you.
    Dr. Eastman.
    Mr. EASTMAN. You know, our organization doesn't have those 
particular problems. But as our story has become more public, 
the number of communications I have received seeking legal 
counsel have raised a concern that a lot of Americans have 
expressed, is this limited to the IRS? The stories about people 
having OSHA and ATF and the FBI starting investigations of 
their organizations just have American citizens scared to death 
of what their government is capable of doing once they have 
crossed the threshold that they have crossed here.
    It is not just the IRS. This is the beginning of a thread 
on a sweater that is just unraveling. And Americans are down 
right afraid of what is going on. We have to restore the 
credibility of government as a servant of the people rather 
than our master, as my colleague said. The number of stories 
that I am hearing that indicate those greater concerns I think 
is deeply troubling.
    Chairman CAMP. All right.
    Dr. Kenney.
    Ms. KENNEY. In answer to your question, definitely, yes.
    Chairman CAMP. All right.
    Ms. Martinek.
    Ms. MARTINEK. And yes also. They had asked us to please 
explain in detail the activities at our prayer meetings, also 
please provide the percentage of time your organization spends 
on prayer groups as compared with the other activities in our 
organization.
    Ms. GERRITSON. I would agree with the IG report. But I was 
disturbed, on page 20, the IRS listed seven questions that they 
deemed inappropriate. However, many of the questions that I was 
asked and others were asked, like the contents of our prayers, 
some of the organizations that we have been involved with, they 
even asked questions about family members. And the questions I 
mentioned about running for office, they don't deem those as 
inappropriate. So I think we need to go back and look at those 
questions because most of them were inappropriate.
    Chairman CAMP. And, obviously, getting a letter from a 
Federal agency asking for those detailed--those detailed pieces 
of information about prayer meetings and these issues about 
what your family members are doing had to be disturbing. I read 
some of these questions and, obviously, I came to the 
conclusion that the IRS felt there was a right and wrong 
position on those issues. There was a right and wrong activity 
regarding prayer meetings, for example.
    What was your impression when you received those questions? 
And I will start with you, Ms. Gerritson.
    Ms. GERRITSON. Well, like I said, when I received those 
questions, I did--I felt defensive, for one thing, because I 
felt like that wasn't any of their business. I wasn't going to 
identify my volunteers. I was fearful for them. If their name 
was going to the IRS, I know they would be scared. The 
questions were chilling, I was shocked that I was being asked 
those questions.
    Chairman CAMP. All right.
    Ms. Martinek.
    Ms. MARTINEK. The most disturbing thing for us was having 
to agree that we would not protest or picket at Planned 
Parenthood. And since there was no similar request in the 
application, really we had no idea what they were even trying 
to control. If we went there in prayer, would that be 
considered picketing, protesting? It was very troubling.
    Chairman CAMP. All right.
    Dr. Kenney.
    Ms. KENNEY. I immediately reached my target heart rate when 
I opened the envelope. And I had anxiety. And I felt betrayed, 
absolutely betrayed.
    Chairman CAMP. All right.
    Dr. Eastman.
    Mr. EASTMAN. When our donors were disclosed, a number of 
them called us expressing concern about that. The effort seems 
to have been designed to subject our donors to abuse, to 
intimidation, to hold them accountable for donating in support 
of the cause of traditional marriage, to boycott their 
businesses, to target their families and, more significantly 
for our purposes, to chill them from donating again so we can 
keep up the political fight that we are in the middle of. There 
is an unbelievable chilling effect on what happened to us.
    Chairman CAMP. Ms. Belsom.
    Ms. BELSOM. I think that for our organization the questions 
weren't quite as intrusive as some of the other groups, but I 
was just overwhelmed by the sheer level of minute detail that 
was being requested. And to try to go back and track down this 
kind of stuff, it was, you know, very difficult. It was a very 
stressful thing, having to go through this.
    And, you know, at this point, too, now that I think about 
it, I was looking back through--I mean, this is the paperwork, 
my files. And when I looked back through all this information 
that has been sent into the IRS--and I have heard about these 
157 visits, I believe it was, between the head of the IRS and 
President Obama--and I am very concerned. It just makes me very 
nervous thinking about, was my group being discussed, was our 
political activities being discussed, and are we somehow 
targeted for this? And it is very chilling.
    Chairman CAMP. All right.
    Mr. Kookogey.
    Mr. KOOKOGEY. Most disturbing to Linchpins of Liberty--keep 
in mind that we work with students, some of them minors, 7th-
graders. That the IRS would ask to know the identity of those 
students is unbelievably, unconscionably chilling.
    Chairman CAMP. At the same hearing that I mentioned earlier 
on May 17th, then-Acting Commissioner Steve Miller summed up 
the IRS' action as ``horrible customer service.'' Now, I know 
that I certainly take a different view of that, as I am sure 
many Members of this Committee do. And his quote was, ``I will 
admit that. We did. We did horrible customer service. Whether 
it was politically motivated or not is a different question.''
    I would say, Dr. Eastman, if you had a bank and you 
disclosed confidential customer information, would you call 
that horrible customer service or would you call that something 
else?
    Mr. EASTMAN. I would call it a felony, as the Federal law 
calls this a felony.
    Chairman CAMP. All right.
    Mr. EASTMAN. And I would hold the people that committed 
those felonies accountable. I would bring indictments. I would 
open up civil liability for them for the taxpayers who were 
affected. The damages to our donor base are incalculable. And I 
would prosecute those people responsible.
    Chairman CAMP. All right. Thank you.
    Mr. Levin is recognized.
    Mr. LEVIN. Well, thank you very much.
    Let me just say a few things in response to your testimony. 
I do think it is our obligation to get the facts and not deal 
in conjecture. Indeed, I think the more we deal with 
conjecture, the less likely we are to get the facts.
    So let me just say to you, Ms. Martinek, I think we very 
much disagree about the work of Planned Parenthood; that is my 
guess. But I must say that the question about whether you were 
picketing or protesting before a Planned Parenthood is totally 
worse than inappropriate. You should not have been asked that. 
And as personnel of the IRS are inquired of, I would think that 
may be looked in to.
    Mr. Eastman, let me just say to you, this issue was raised 
at the hearing with the Inspector General, and Mr. Miller 
indicated, in response to a question from you, Mr. Chairman, 
about the donor list, he said, ``I believe we made a referral 
to the Inspector General.''
    He was later asked about that, and he said, ``Those two 
situations, we went to TIGTA, and I think Mr. George can speak 
to what they found--what they found. We made the referrals, and 
I believe what they found was that those disclosures were 
inadvertent and that there had been discipline in one of those 
cases for somebody not following procedures. But I will--I will 
obviously let Mr. George speak to that.'' That was his 
testimony.
    And then our Chairman asked Mr. George about that, and it 
would appear from his testimony that it was being investigated 
by the Inspector General. And that is all we know about it at 
this point, whether it continues to be investigated by the 
Inspector General is unknown.
    So let me finish. I just want to emphasize, I said in my 
opening statement that we also need to look at the larger issue 
of 501(c)(4)s, of the statutory language in the regulation and 
how, in fact, it is now being utilized.
    But I want to finish by just reading the last part of my 
opening statement. And we said this to each one of you and to 
the American public: ``Please be assured that we take seriously 
our responsibility to ensure that Congress gets to the bottom 
of what happened, that those responsible are held accountable, 
and that safeguards are in place to ensure that this does not 
happen again.''
    We will do that. We surely on the Democratic side will do 
that. I trust on a bipartisan basis we will work together to do 
that.
    Thank you.
    Chairman CAMP. Thank you.
    Mr. Johnson is recognized.
    Mr. JOHNSON. Thank you, Mr. Chairman. Thanks for holding 
this important hearing. The American people want, need, and 
deserve to know the truth, and it is our responsibility to 
demand it and hold those responsible fully accountable.
    I also want to thank the witnesses for sharing your 
stories.
    Mr. Chairman, I was particularly struck by the testimony by 
several of the Tea Party witnesses.
    As you know, Mr. Chairman, back in my district it appears 
the Allen Area Patriots, who advocate the fiscal 
responsibility, the rule of law, and limited government, have 
also been a target of the IRS. Back in July 2010, the group 
applied for 501(c)(4) status. As of today, that group has yet 
to receive a final response. That is absurd. It has been nearly 
3 years.
    In February 2012, the IRS sent the Allen Area Patriots a 
set of 19 questions, including onerous and irrelevant ones 
relating to the employment of the group's key officials.
    Mr. Chairman, I would like to submit for the record the CBS 
DFW news story entitled, ``Two DFW Conservative Groups Targeted 
by the IRS.'' And let me just say what it says here. The IRS 
wanted a list of all their volunteers, everything they did. 
They wanted an accounting of every dollar donated and what it 
was spent on. It wanted records of every speaker the group had 
ever hosted and flyers they might have handed out.
    May I submit that for the record?
    Chairman CAMP. Without objection.
    [The submission of The Honorable Sam Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Mr. JOHNSON. Thank you.
    The pattern of intimidation toward certain Americans is, 
quite frankly, in my view, un-American. The bottom line is the 
IRS has been used as a political weapon.
    You know, Ms. Kenney, I understand you work with veterans 
returning from combat with post-traumatic stress disorder. And, 
as a veteran, I would like to start off by saying thank you for 
doing that.
    Ms. Kenney, can you describe your work?
    Ms. KENNEY. I work with veterans who have been deployed to 
Iraq and Iran--rather, Iraq mostly, the desert communities--and 
their families. The toll that deployment takes on the families 
is extraordinary.
    I work with a therapy dog. I am going to cry. I see people 
that are untouched. No one goes up and hugs a soldier unless 
they are family. But I have this one guy I see, and he goes, 
``Where is my dog?'' He picks the dog up, and the entire 
session he pets my dog, Little Lady.
    They are on the front lines, and everyone on this panel has 
their back. And I hope you do, too.
    Mr. JOHNSON. Yes, ma'am. Well, as you know, I was in the 
military, and I understand that. Thank you for doing that.
    Considering the selfless work you do, did you ever think 
you would have to deal with pages and pages and pages of 
intruding questions from the IRS?
    And when you come home from a day of helping our troops who 
protect us every minute of every day, I bet the very last thing 
you want to do is deal with onerous questionnaires from the 
IRS. Can you talk about the burden of the IRS questions and how 
many there were?
    Ms. KENNEY. The burden of the questions on me, personally, 
was extraordinary. I think I could have bought stock in Kinkos 
because there were almost 200 pages of documentations, 
leaflets, 
and agendas. I have one here. They asked if we had candidates 
of pretty much only a certain party.
    This is a list of candidates that I invited for one of our 
candidate forums, both Democrats and Republicans, back and 
forth. I heard nothing from any of the Democratic candidates, 
not even an RSVP regret. And some of the Republicans, if they 
couldn't come, they sent their presentation, and so did the 
Libertarians.
    Our group is primarily educational. We have operated as a 
501(c)(4). We have done this to get word out on the 
Constitution, to get people to be informed about how to vote, 
where to go to vote. If you go on our website, you will see 
Democrat, Republican, and Libertarian groups in Los Angeles 
County listed.
    Mr. JOHNSON. How much time did the IRS give you to respond 
to those letters?
    Ms. KENNEY. Twenty days. That was after the first 
interrogatory. There were three questionnaires that were sent.
    Mr. JOHNSON. It probably made it impossible for you to 
answer those questions, too.
    I thank you again for being here, and thank you for the 
great work you do to help our veterans. I appreciate you 
standing up for them as they stand up for us.
    Thank you, Mr. Chairman.
    Chairman CAMP. Thank you.
    Mr. Rangel.
    Mr. RANGEL. Thank you, Mr. Chairman.
    And let me thank each and every one of you for making the 
effort to come here to point out where our government has let 
us down and in helping us to understand the problems 
encountered by those people who were directly and adversely 
affected so that we can better do our job.
    And I don't want to forget, Ms. Kenney--and I hope everyone 
that is listening--whatever you can do for the veterans, 
whatever anyone can do to help those people who put their lives 
at stake and are coming home to joblessness and homelessness, I 
want to commend you, as did my colleague, Congressman Johnson, 
for what you do and hope that it is encouragement for--
everybody can do something.
    Now, with the IRS, most of us know that this is an 
experience. A telephone call from the IRS, somehow 
historically, it is a very, very uncomfortable feeling. And I 
hope all of you would agree that the 90,000 people that work 
for the Internal Revenue Service are dedicated, hardworking 
civil servants.
    But we have found a cancer someplace in Cincinnati, and we 
have to find out what caused this so that no Americans would be 
subject to the type of bias and discrimination that some of you 
and many others who are not here have suffered. And we have to 
make certain that it doesn't happen again, but, even more 
important, to try to find out just how many people were 
contaminated by the presence of those people that have done 
this to our country.
    Dr. Eastman, I think you would agree that we have to find 
criminal intent. We don't know how anyone could do something 
like this and just think it was in the ordinary course of 
business. But I, as a former Federal prosecutor, and you, as a 
doctor and a lawyer and a former clerk to a Member of the 
United States Supreme Court, know that--I have been trying to 
get this same information that you spoke of in your testimony, 
and they said this is all being investigated and, you know, 
could lead to a grand jury inquiry. And I think that if you and 
I kept in touch with each other, I would be satisfied with you 
following whether or not our government is actually pursuing 
this investigation in the manner that you as an American can be 
proud that this branch of government intends to do the job that 
is expected of us.
    And so I don't want these hearings to just pass and indict 
an Administration but, more importantly, to indict these civil 
servants that work every day for the taxpayers.
    I want to close, Dr. Eastman, by saying that when it comes 
to political support, most people know I am a Democrat to the 
marrow of my bones, but what makes our country great is that 
everybody wants a better country and loves the country that we 
are in. And we need all of these views. Whether you came over 
with the Pilgrims or whether you came some other way against 
your will, we are here to improve the quality of life in our 
country and to be a beacon for democracy for the entire world.
    I don't know whether our political system can afford to be 
using charitable organizations to get candidates elected. And I 
only ask you this as a professor of constitutional law, Dr. 
Eastman, and because of the fact that people's identity should 
be confidential if it concerns their activity. But if you are a 
Democrat, hey, put it out there. If you are a Republican, put 
it out there. If you are making contributions, do it and be 
proud of it.
    But it just sounds, Dr. Eastman, like an undercover thing, 
to take an organization that is supposed to be primarily for 
the public good and be giving political campaign funds to it. 
What is your view, Dr. Eastman, of that?
    Chairman CAMP. And, Dr. Eastman, you will have to respond 
briefly because time has expired.
    Mr. RANGEL. Yes.
    Mr. EASTMAN. If you wanted to get rid of all of the tax-
exempt status and create a level playing field that way, that 
would be fine. But what is intolerable is to have one set of 
rules for one side of the political fight and another set of 
rules for the other.
    Mr. RANGEL. No, I agree with you on that.
    Mr. EASTMAN. And, quite frankly, Representative Rangel, 
what is happening to the National Organization for Marriage 
donors, the level of intimidation that is going on against them 
is starting to rival what went on--the Supreme Court shut down 
in NAACP v. Alabama.
    There is a reason some people want to have their activities 
confidential, and that is so they don't get harassed and 
intimidated out of participating in the political process. And 
when it rises to the level of NAACP v. Alabama, I think it is 
important that we help protect that confidentiality that the 
law provides so that people are not chilled away from 
exercising their constitutional rights.
    Mr. RANGEL. I agree----
    Chairman CAMP. Thank you.
    Mr. RANGEL [continuing]. Republicans and Democrats----
    Chairman CAMP. Time has expired, Mr. Rangel.
    Mr. Brady is recognized.
    Mr. BRADY. Our first hearing revealed a number of 
significant abuses, or potential abuses, of power by the IRS, 
including targeting donors and organizations based on their 
political belief, leaking private taxpayer information to the 
media, to outside groups, perhaps to campaigns, concealing that 
program for almost 2 years, and then misleading Congress. Any 
thorough, deliberate investigation ought to begin by listening 
to the victims of those abuses of power, so thank you all for 
being here today.
    Ms. Martinek, a small-business owner in the Midwest, Ms. 
Gerritson, a housewife and concerned citizen of Alabama, you 
two are plenty tough, but how frightening is a government so 
powerful that it can target you, an average American citizen, 
for simply expressing your constitutional views and wanting to 
be engaged in this Republic? How frightening is that power?
    Ms. MARTINEK. Well, for me, it was very frightening. I 
didn't think we had a hope to even try to stand up to it. 
Personally, I thought we would just have to sign the letter and 
get our 501(c)(3). If we didn't have the 501(c)(3), you know, 
some of our donors maybe wouldn't contribute to us. So it was 
power the IRS had over us and over the success of our group by 
not granting this.
    Fortunately, some of our board members were strong about 
it, and they would not give up their First Amendment rights. 
And even though we are not about protesting--that is not what 
we are even about. We are about education. We are about praying 
for an end to abortion. Some of our members, when they are 
praying at Planned Parenthood, do like to take a side. But that 
is a very small percentage in our organization. Still, we 
didn't want to give up the right that we had to be able to do 
that.
    Fortunately, we had some attorneys that helped us. But if 
we didn't have the attorneys, I don't know what would have 
happened.
    Mr. BRADY. Yeah. Thank you.
    Ms. Gerritson.
    Ms. GERRITSON. Well, I don't know, it is very hard to put 
into words how scary it is when a huge government and a 
government agency can come after an individual or a small 
organization.
    I think what is the most alarming and what is the most 
scary is that when you allow the government to go so far and 
you don't stop them, they go farther. It is just, pretty soon 
we are in tyranny. And it is hard to put into words, but it 
looks like that is--you know, but using these agencies as a 
weapon against citizens feels scary, and it feels like tyranny.
    Mr. BRADY. Yeah. That is exactly what these hearings are 
about.
    Mr. Eastman, the White House continues to claim that all 
this was done by a couple of rogue employees in Cincinnati. Do 
you believe the leaking of your personal taxpayer information 
was done or contained by a few rogue employees in Cincinnati?
    Mr. EASTMAN. No, I don't, Representative Brady.
    And let me respond to Representative Levin's comment about 
this as being inadvertent. It wasn't inadvertent that somebody 
redacted the identifying information that this came from the 
IRS.
    Mr. BRADY. It was deliberate.
    Mr. EASTMAN. It wasn't inadvertent that it was given to our 
political opponents. This wasn't somebody dropped a piece of 
our tax return out on the sidewalk inadvertently. They 
deliberately provided our donor list to the very political 
opponents of ours who had been seeking that information for a 
long time. If that is inadvertent, the word no longer means 
anything.
    Mr. BRADY. Got it.
    Ms. Belsom, concerned citizen of South Carolina; Mr. 
Kookogey, in addition to being an attorney, you teach civics 
classes. Did either of you believe that this could happen in 
America? Did you ever imagine that the government could target 
you like this?
    Ms. BELSOM. That wasn't something I was thinking about. You 
know, I thought we lived in a free republic. But, honestly, I 
feel that our country has turned a corner into tyranny, and I 
honestly have lost sleep over just being in fear of what our 
government might do next.
    Mr. KOOKOGEY. In my situation, actually, we teach about 
this very thing. The irony is that it is happening right under 
our noses. So it is a good lesson for my students, albeit a 
frightening one.
    Mr. BRADY. It is probably one you didn't include in your 
lesson plan originally, being targeted by the IRS for your 
political beliefs.
    Mr. KOOKOGEY. We did not.
    Mr. BRADY. We have a lot to do in this investigation. It is 
going to be thorough, it is going to be deliberate. It is very 
important we hear from you, so thank you all for being here 
today.
    Mr. Chairman.
    Chairman CAMP. Thank you.
    Mr. McDermott.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Freedom of speech is no doubt one of our most important 
fundamental rights. It is unacceptable in every way for a 
government agency to unfairly scrutinize any organization 
because of their political affiliations. The IRS has 
unequivocally made a mistake here. I am sorry your 
organizations were singled out like this. And while I think it 
is a case of foolish account management and dangerously chosen 
shortcuts, I will not hesitate to say the IRS was wrong.
    But as I listen to this discussion, I would like to remind 
everyone what we are talking about here. None of your 
organizations were kept from organizing or silenced. We are 
talking about whether or not the American taxpayers will 
subsidize your work. We are talking about a tax break. If you 
didn't come in and ask for this tax break, you would have never 
had a question asked of you. You could go out there and say 
anything you want in the world.
    And I get the feeling that many of you and my Republican 
colleagues just don't believe--believe you should be free from 
political targeting, but that you should be free from any 
scrutiny at all. The purpose of a (c)(3) or (c)(4) tax 
exemption is to enable easier promotion of public good, not 
political work.
    It is the responsibility of the IRS to determine which 
groups are choosing the correct exempt status and which are 
trying to manipulate the system to avoid taxes and hide 
political organizations and campaign donors. Without oversight, 
a status meant for charities becomes a machine for political 
money laundering.
    If you think that is farfetched, you ought to speak to 
Speaker Gingrich. Speaker Gingrich in 1997 was fined $300,000 
by the Ethics Committee of the House of Representatives for 
funneling money from the ALF, the Abraham Lincoln Opportunity 
Fund, into GOPAC, of which he was Chairman, to promote the 
takeover of the House and arouse Republican activists. Now, 
that is what happens when you don't ask questions.
    Each of your groups is highly political. From opposing the 
President's healthcare reform, to abortion restrictions, to gay 
marriage, you are all entrenched in some of the most 
controversial political issues in the country. And with your 
applications, you are asking the American public to pay for 
that work.
    Many of you host and endorse candidates. The line between 
permitted political activities and nonpermitted political 
activity can be very fine. And it is important that the 
taxpayers--the taxpayers--know which side you fall on. If there 
were an organization promoting taxpayer funding for abortions, 
wouldn't you want to know what they were using that political 
money for or what candidates they were backing? What about a 
group that wanted to promote voting without ID? Or what if in 
the midst of--a few years ago, there was an increase of 
communist candidates in this country and new communist clubs 
wanted to be tax-exempt. Wouldn't you want to be sure that the 
self-declared tax-free classification of those groups was 
correct?
    The mistake here was that the staff organizing the 
organizations used the names of the organizations rather than 
the work they do and asked improper questions to figure that 
out. It is clearly wrong. It was inept, stupid, and a whole lot 
of other things.
    But let's not get lost. During the Bush Administration, 
liberals were targeted without any concern by Mr. Issa or 
anyone else on this Committee. Republicans are looking for a 
conspiracy where there isn't one.
    Mr. Issa says he can feel it in his gut that someone has 
broken the law. Well, you just ask yourself which is more 
likely, that midlevel employees overwhelmed by four times as 
many applications as before made stupid, irresponsible 
shortcuts or that there is an Administration-wide plot to take 
down community organizers?
    Let's not forget, this happened under an IRS Commissioner 
appointed by George Bush and was investigated by a Republican 
Inspector General.
    What happened to you was unfair. It was unfair and 
incredibly inconvenient. But it was a mistake. Our job is to 
make sure it never happens again. I haven't heard a single word 
here about what questions you think we ought to be able to ask 
you about your tax-exempt requests.
    Anything else, like the circus that is happening in the 
Oversight Committee or here, is simply political theater. It is 
diverting attention from what we ought to be doing on this 
Committee, which is rewriting the law if it is wrong.
    Chairman CAMP. All right. Thank you. Time has expired.
    Mr. Ryan is recognized.
    Mr. RYAN. I am going to deviate from my original question 
in response to what I just heard.
    Mr. MCDERMOTT. Mr. Chairman----
    Mr. RYAN. Welcome to Washington.
    Chairman CAMP. The Committee will be in order.
    Mr. Ryan has the time.
    Mr. RYAN. We heard ``Gingrich.'' We heard ``Bush.'' We had 
the former IRS Commissioner Shulman, who knew about the 
political targeting long before Congress was told. It seems 
implied that the organizations were responsible for the 
targeting because they chose to apply for tax-exempt status. So 
you are to blame I guess is the message here.
    Do you think that you were targeted based upon your 
political beliefs, your religious beliefs, or just because you 
chose to apply?
    Ms. GERRITSON. We were targeted based on our beliefs, our 
views.
    Mr. RYAN. We had the Acting Commissioner Miller here a 
couple of weeks ago, and we asked him, were groups with the 
word ``organizing'' or ``progressive'' in their name, were they 
targeted? The answer was no.
    We do know for a--this is one of the facts we now know: 
People were singled out because of their beliefs.
    Going back to my original line here. Mr. Kookogey, you are 
at 29 months.
    Mr. KOOKOGEY. Twenty-nine months and counting.
    Mr. RYAN. And counting. You haven't been approved yet.
    Mr. KOOKOGEY. I have not been approved.
    Mr. RYAN. You have been asked, one of your inquiries, there 
were 90 questions asking you to provide a list of your members 
and donors, the political affiliation of your mentors, and your 
political position on virtually every issue important to you.
    Mr. KOOKOGEY. Yes, sir.
    Mr. RYAN. You are teaching Montesquieu, Cicero, Augustine, 
de Tocqueville, Washington. And it is 29 months and waiting, 
right?
    Mr. KOOKOGEY. Yes, sir.
    Mr. RYAN. Okay.
    Mr. Eastman, I want to get this one nailed down--Dr. 
Eastman, excuse me. You have proof that the IRS, an individual 
or a group of individuals at the IRS committed a felony, you 
have proof of 
this, and nothing has occurred to seek or find justice. Is that 
correct?
    Mr. EASTMAN. That is correct. Federal law requires that we 
be notified if there is an indictment brought. We have not 
been. Federal law allows us to request information about the 
status of the investigation, whether it has been productive or 
unproductive, and any action taken. We were refused any answer 
to that request, as well. We have identified that this document 
came from within the IRS.
    Mr. RYAN. So your donors are confidential; that is 
protected by law. You have proof that the IRS leaked your 
confidential donor information to a group that opposes your 
point of view, and your donors were harassed as a result of 
that. Is that correct?
    Mr. EASTMAN. Yes.
    Mr. RYAN. All right.
    Ms. Martinek, right next-door in Iowa--I work with groups 
very similar to what you do in Iowa. The IRS told you that if 
your board signed a letter saying that they would no longer 
picket or protest on behalf of the pro-life movement at Planned 
Parenthood, that then they could receive their tax-exempt 
status. Is that correct?
    Ms. MARTINEK. That is correct.
    Mr. RYAN. So surrender your First Amendment rights, and 
then we might approve your application.
    Ms. MARTINEK. That is correct. She said it was ready to go 
through, everything was in order, and as soon as they received 
that letter, the application would go through.
    Mr. RYAN. We have not heard any testimony that this is 
happening to groups that have the opposite views. So to suggest 
that these citizens are to blame for applying, I don't 
understand how one can make that conclusion.
    I yield.
    Chairman CAMP. Thank you.
    Mr. Lewis is recognized.
    Mr. LEWIS. Thank you, Mr. Chairman.
    I thank each of you for being here. I notice the makeup of 
the panel is half and half from the South and other parts of 
the country. I grew up in Alabama, went to school in Tennessee, 
I now live in Georgia, but I am happy to see people from other 
parts of the country.
    No organization or individual, whether progressive or 
conservative, deserves the type of treatment that you received 
or experienced. The targeting of groups applying for tax-exempt 
status based solely on political views is completely 
unacceptable. It is a disservice to the American people.
    But let me be clear: It is also a disservice to apply a 
partisan lens to an issue that concerns all Americans. Since 
the days of the Bush Administration, groups with very political 
leanings have been scrutinized. Every single person in this 
room knows this.
    We must be honest with ourselves and with each other. This 
has nothing to do with red versus blue. In fact, for the past 
10 years, all of the IRS Commissioners have been Republican 
appointees, appointed by President George Bush.
    Between 2004 and 2006, many liberal groups, including the 
NAACP, a progressive church, and an environmental group, were 
targeted by the Bush Administration. Where was the outrage 
then? Where was the sense of righteous indignation?
    As Members of this Committee, we must exercise our 
oversight role with the honesty and fairness that the American 
people expect and deserve.
    As we sit here today, let us also remember that the IRS has 
many good, hardworking employees who do a great job enforcing 
the Tax Code. We must not let the actions of a misguided few 
poison the reputation of the entire agency. If anything, we 
must come together to find a bipartisan solution to a 
bipartisan problem.
    Again, I want to thank each of you for taking the time, 
coming here, especially coming from Wetumpka, Alabama, not too 
far from Montgomery and from Troy, where I grew up--it is a 
great distance. And, again, thank you for being here.
    And thank you, Mr. Chairman. And I yield back my time.
    Chairman CAMP. Thank you.
    Mr. Nunes is recognized.
    Mr. NUNES. Thank you, Mr. Chairman.
    Mr. Kookogey, among the IRS agents who demanded answers to 
many intrusive questions, you received a letter with those 
demands from Ms. Lois Lerner in Washington, D.C.; is that 
correct?
    Mr. KOOKOGEY. Yes, sir.
    Mr. NUNES. Ms. Gerritson, you also received a letter from 
Ms. Lerner?
    Ms. GERRITSON. Yes, sir.
    Mr. NUNES. And, Ms. Kenney, you received a letter from Lois 
Lerner, no?
    Ms. KENNEY. It is in the materials I gave to the Committee, 
yes.
    Mr. NUNES. Okay.
    Did anyone else receive letters from Lois Lerner? Okay.
    So, Mr. Chairman, we have three witnesses here who received 
letters from Lois Lerner. Last week, or 2 weeks ago, Mr. Miller 
suggested that this was just confined to Cincinnati. Obviously, 
we have conflicting statements there between what Mr. Miller 
said and what actually happened, and I think we need to get to 
the bottom of that.
    Mr. Eastman, can you name the Treasury Inspector General 
for Tax Administration officials whom you discussed your case 
with?
    Mr. EASTMAN. Not off the top of my head, but I can provide 
that to the Committee after the hearing.
    Mr. NUNES. Okay. If you can provide those after the 
hearing, I would appreciate it.
    Do you know if the leak of your tax information that 
included your organization's donors, did it come from 
Washington, D.C., or Cincinnati, or do you know?
    Mr. EASTMAN. I don't have any reason to believe that it 
came from Cincinnati. Our filing office is out in Utah, and the 
Washington office is who we have been dealing with.
    Mr. NUNES. Okay.
    Mr. Chairman, I think we should try to figure out where--
perhaps the Inspector General has that information, which would 
speed up this process on this investigation of where this 
information was leaked from. Because, obviously, that would 
dispel the Cincinnati narrative that is out there.
    Ms. Martinek, the IRS agent who handled your case was Ms. 
Richards?
    Ms. MARTINEK. That is correct.
    Mr. NUNES. Does Ms. Richards have a first name?
    Ms. MARTINEK. She never gave her first name.
    Mr. NUNES. Okay. Did you correspond with any other IRS 
agents about your case?
    Ms. MARTINEK. I did not, but our attorney, Sally 
Wagenmaker, did.
    Mr. NUNES. Okay. Could you provide the names of who she 
corresponded with to this Committee?
    Ms. MARTINEK. Yes.
    Mr. NUNES. Did Ms. Richards ever indicate she was 
discussing your case or seeking guidance from anyone else at 
the IRS?
    Ms. MARTINEK. Yes, she did, a couple of times. She put me 
on hold, and then said, I must check with my supervisors.
    Mr. NUNES. So you don't know the name.
    Ms. MARTINEK. She never gave me a name.
    Mr. NUNES. Were they in Cincinnati or somewhere else?
    Ms. MARTINEK. I don't know that.
    Mr. NUNES. You don't know. Okay.
    Ms. Belsom, you were contacted by Mr. Joseph Herr?
    Ms. BELSOM. Yes.
    Mr. NUNES. And did you correspond with any other agents 
about your case?
    Ms. BELSOM. No.
    Mr. NUNES. Just Mr. Herr?
    Ms. BELSOM. Yes.
    Mr. NUNES. Did Mr. Herr ever indicate that he was talking 
to someone else within the agency?
    Ms. BELSOM. I didn't speak to him on the phone, we just had 
the initial letter. Then I contacted the ACLJ, and they dealt 
with him.
    Mr. NUNES. Okay. So you don't know if it came from 
Washington or Cincinnati.
    Ms. BELSOM. Well, he is in the--the address he gave on the 
letter he sent that he signed, it said Cincinnati.
    Mr. NUNES. Cincinnati. Okay.
    Mr. Chairman, in light of today's testimony, I think that 
we should bring these--at least Mr. Herr, Mr. Steele, Ms. Faye 
Ng, and Ms. Richards, who doesn't have a first name, we should 
try to figure out who these people are and, I think, bring them 
before the Committee or at least conduct interviews with these 
folks.
    I also remain concerned about Ms. Lerner, who pled the 
Fifth but has said she didn't do anything wrong. We should 
probably try to get her before this Committee, and also her 
colleague, Mr. Joseph Grant, who was promoted just weeks before 
and then resigned immediately. I think they could maybe shed 
some light on who violated the constitutional rights of these 
witnesses and many rights of many Americans.
    And I will yield back.
    Chairman CAMP. All right. Thank you.
    Mr. Neal is recognized.
    Mr. NEAL. Thank you, Mr. Chairman. And thanks for calling 
today's hearing.
    What we have heard today and what we have heard in previous 
hearings is certainly very troubling. The IRS touches every 
American, and it is critical that Americans should trust the 
IRS and not be intimidated or be afraid of the IRS. These 
reports, including today's testimony, of targeting by the IRS 
of organizations based on their political views, religion, or 
opposition to the Administration's policies is certainly 
unacceptable.
    I am also troubled by the mismanagement of the IRS in 
handling tax-exemption applications and the lack of oversight 
of the screening process. Acting Commissioner Miller last week, 
based on questioning that I had offered, highlighted a case of 
one of my constituents who followed the advice of the IRS, only 
to be penalized a few years later. Americans certainly should 
be able to rely on the advice of the IRS without punishment.
    The inconsistencies in information and failure by the IRS 
to provide Congress with information in its oversight role 
certainly is unacceptable, as well. It is unbelievable to me 
that Lois Lerner testified before this Committee just a few 
days before her apology at the ABA conference without informing 
the Committee as to what she was going to say at the ABA 
conference. That demonstrated a lack of regard for our role.
    So I appreciate very much, Mr. Chairman, your hearing and 
calling it today. We need to get to the bottom of these 
problems and work together to identify solutions on what I hope 
will be a bipartisan basis.
    But we can't forget something here that is even more 
egregious than some of the actions of the IRS, and that is the 
underlying problem: 501(c)(4)s are engaged in political 
activity.
    After Citizens United, the IRS was flooded with 
applications from groups seeking 501(c)(4) status. Why was 
that? In large part, it is because the super PACs must disclose 
their donors, which 501(c)(4)s do not.
    That is not meant as a political statement. Both 
conservative and liberal groups have taken advantage of the 
lack of transparency of 501(c)(4) status, and it is equally 
troubling in both cases. In reference to Mr. Ryan's statement 
earlier, there were Democratic groups that were targeted. 
Previous testimony indicated that. And that should be noted, as 
well.
    So I hope, Mr. Chairman, that you are going to include a 
thorough review of 501(c)(4) status as we seek to address the 
issue.
    Now, Ms. Kenney, just a question. I appreciate very much 
your work with veterans, including the fact that there are 
1,700,000 new veterans. That number is probably going to reach 
2 million, as you know.
    Now, you did, in your opening testimony, indicate that you 
have an invitation that you extend to a wide range of groups 
and candidates. But you also indicated that Democrats did not 
attend based upon the invitation that you have extended. Why do 
you think that would be?
    Ms. KENNEY. I have no idea.
    Mr. NEAL. Okay.
    That is the end of my questioning, Mr. Chairman. Thank you.
    Chairman CAMP. Thank you.
    Mr. Tiberi is recognized.
    Mr. TIBERI. Thank you, Mr. Chairman, for providing this 
hearing today and the outstanding witnesses. The testimony has 
been breathtaking.
    And I would like to remind all the Members of the Committee 
that this is far beyond 501(c)(4) status. Mr. Chairman, you may 
recall the gentleman that I introduced who was in the audience 
at the last hearing, Justin Binik-Thomas, question number 26. 
And I would like to work with you to submit some information on 
that particular case. Congresswoman Schmidt was his 
representative, and she submitted--suburban Cincinnati--to the 
IRS questions regarding why Mr. Thomas was question number 26 
on a 501(c)(3) application for a suburban Cincinnati 
organization. To this day, they have not received their status, 
and to this day, this American doesn't know why he was question 
number 26. And so I would like to work with you, Mr. Chairman, 
on trying to get answers to both of those questions.
    I was shocked to find out on Friday, with a question from a 
lawyer in my district, about another matter dealing with the 
IRS. This lawyer represents an organization that is a taxable 
nonprofit, a taxable nonprofit. They filed their first tax 
return with the IRS in February of this year, Mr. Chairman. The 
organization's name was We the People Convention, Inc. in Ohio.
    They received a letter from the IRS on April 30th, and it 
says, ``Dear taxpayer. On February 21st, we received your Form 
1120 for the tax period shown above. We are sorry we cannot 
process your return as filed. Our records indicate the above-
named account, We the People, is a political corporation. And, 
thus, as a political corporation, you are required to file Form 
1120-POL and file for tax-exempt status.''
    The IRS had no information other than the name ``We the 
People'' for an organization that wanted to pay taxes, and 
their return was rejected in April of this year, Mr. Chairman.
    The lawyer wrote back to the IRS--by the way, not the Tax-
Exempt Division, another division within the IRS, Input 
Corrections Operation within the IRS. And the letter from the 
lawyer says, ``This organization was formed as a nonprofit 
corporation in Ohio in February of 2011. The stated purpose of 
the entity is a coming together of Ohio citizens for the 
purpose of sharing knowledge, experience, information, and 
ideas about the governance of our State, as well as for any 
lawful purposes. The activities of the organization are focused 
upon planning and holding an annual meeting to discuss civic 
and social welfare. The organization is not involved in any 
activities designed to directly or indirectly influence the 
outcome of any election. Thus, the organization does not meet 
the statutory test as an entity that can claim tax-exempt 
status under IRC Section 527 and has not attempted to claim 
such status.''
    Mr. Chairman, we are only scratching the surface of where 
this goes. Not a tax-exempt organization, this organization is 
a taxable nonprofit. So for the Members of this Committee who 
think that this is about just tax-exempt status--which, by the 
way, is legal--this shows that we are only scratching the 
surface, Mr. Chairman.
    I appreciate your leadership on this. The testimony is 
fabulous. My mom and dad came to America, crossed the Atlantic. 
And I have to tell you, ladies and gentlemen, this is shocking 
to me.
    I yield back.
    Chairman CAMP. All right.
    Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman.
    Thank you for your testimony today.
    The last hearing that we had on this subject featured as 
the lead witness the Inspector General of the Internal Revenue 
Service, a career Republican who had worked for two Republican 
Senators, who was appointed by President George W. Bush, and 
who had broad investigative powers.
    He identified wrongdoing at the IRS. I agree with his 
findings, agree that whether it is one of these organizations, 
any of the 298 applications that Mr. Levin identified from his 
report that were set aside, 96 of them appearing to be of 
perhaps a political orientation like the groups that are here 
today and perhaps one like Progress Texas in my hometown, which 
received a similar letter and has very dissimilar political 
beliefs from those expressed here today, whatever the political 
beliefs, the Inspector General is right: Folks should never 
have to worry about whether the tax collector is looking at 
their political beliefs or activities in making a decision.
    The Inspector General had more to say, however, after the 
very strong opening statement of our Chairman about what the 
report signified. I asked him specifically if he had found any 
evidence of the corruption at the IRS, as charged. He said, no, 
he had not. I asked, since there was a charge opening our 
hearing, whether our tax system is rotten at the core. He 
indicated, no, definitely not. I asked him whether there was 
any evidence to support from his thorough investigation the 
charge of the Chairman that the IRS picks who wins and who 
loses in America. He responded, I don't believe that is the 
case. I agree with him on those findings, as well.
    Indeed, there is a question and a serious problem at the 
IRS with regard to the basic issue of which groups in our 
country the taxpayers should subsidize. We do not subsidize the 
Democratic or the Republican or the Libertarian Party, and we 
should not. And we should not subsidize groups that act in a 
similar way to promote political activity.
    This Congress was very clear on that point, clear on it in 
1913 and in repeated recodifications of what is now 501(c)(4). 
It said that they must be operated exclusively for the 
promotion of social welfare. Only at a later time, through a 
regulation, through a rule that seems to have conflict directly 
with the clear wording of the statute, did the IRS act to give 
itself discretion to explore organizations just like those 
before us today.
    I think the IRS was wrong here. It did so during the 
Administration of President Dwight Eisenhower in 1959, and in 
more recent years, particularly after the decision in Citizens 
United, suggested that we would have tens of millions, indeed 
hundreds of millions, of tax-subsidized money poured in, with 
secret, undisclosed contributors, into the election process to 
pollute our democracy.
    An organization before the last election, Citizens for 
Responsibility and Ethics in Washington, petitioned the IRS to 
act about this and to go back to the original clear, 
unequivocal wording of the statute that had existed since 1913. 
The IRS did not respond, except with a ``we'll think about 
it''-type letter. The Citizens for Responsibility and Ethics in 
Washington has petitioned again this year for the Treasury 
Department to act on this matter. I have asked them, as have 
other Members of this Congress, to do the same.
    I don't believe that the Internal Revenue Service, the 
Treasury Department should be providing tax subsidies to 
organizations that are not engaged exclusively in social 
welfare, whether their name is Progress Texas or the 9-12 
Patriots or any other self-styled name they may want to apply 
to themselves.
    This is the second hearing on this subject in a very short 
period of time. We have now had some 37 votes on whether to 
repeal the Affordable Care Act. I am sure this is not the last 
hearing on this topic, and the two are closely related.
    The Internal Revenue Service has an important function to 
play in carrying out the provisions of the Affordable Care Act. 
It is to assess those working- and middle-class families who 
are entitled to receive some premium assistance in acquiring 
insurance. And the IRS needs to carry out that job effectively 
and fully. The two are directly related: The goal of insuring 
that the IRS cannot fulfill its responsibilities.
    I yield back.
    Chairman CAMP. Thank you.
    I will just note for the record that the Inspector General 
report was an audit and that the Inspector General indicated 
that he would be completing a full investigation of this matter 
in the future.
    So I will recognize Mr. Reichert for 5 minutes.
    Mr. REICHERT. Thank you, Mr. Chairman.
    You know, the Supreme Court has already decided this issue. 
And some of our friends may disagree with the Supreme Court's 
decision, just like some of us on this side of the aisle might 
disagree with the Supreme Court's decision on forcing Americans 
to buy health insurance, but it is the law of the land.
    So let's kind of step back and see where we are. Last week, 
or 2 weeks ago, we had a hearing where Mr. George and Mr. 
Miller appeared. Mr. Miller accepted the IG's report; he said 
he accepted it fully. But on the other hand, he said, I don't 
agree with the use of the word ``targeted'' in the report, even 
though it was used 16 times.
    Mr. Miller would not even agree that certain organizations 
and/or individuals were treated differently in this process. He 
did, however, say, as the Chairman said, ``We provided poor 
customer service.'' ``Poor customer service.''
    So I didn't have a lot of time to ask Mr. Miller additional 
questions, but--so I am trying to figure this out. Was Mr. 
Miller asked to resign by the President of the United States 
because he provided poor customer service? Well, if Mr. Miller 
provided poor customer service and was asked to resign by the 
President, who else provided poor customer service that should 
be asked to resign under Mr. Miller, under Ms. Lerner, under 
the other names that were brought up, would be my question.
    Rather, we know that it was more than poor customer 
service, because Mr. Miller goes on to say, well, while it was 
just poor customer service, I want to apologize. And then he 
came up with excuses. Then he said that, you know, there was 
really no intent here to treat anybody differently or wrongly, 
there was no--this was an effort by good employees to be 
efficient. To be efficient? By asking you hundreds of questions 
about your personal lives, that is efficiency? I don't think 
so.
    And the word ``inadvertent'' was used, as we talked about 
Dr. Eastman's release of information, tax information. That is 
not inadvertent.
    There is more investigation to do. I have said many times 
in this forum--most people know that I am a retired police 
officer, 33 years as a cop. There are a lot of questions to ask 
here.
    When I asked Mr. Miller who he spoke to about this to try 
to find out who came up with the criteria that all of you had 
to respond to, he didn't remember at first but finally gave me 
the title of a person that he spoke to. And I finally said, 
what is the name of the person? He said it was Nancy Marks.
    Did any of you speak with Nancy Marks or receive any 
communication at all from Nancy Marks?
    Mr. Chairman, I would suggest, along with Mr. Nunes, that 
we think about having Nancy Marks appear in front of this panel 
to find out what she knew, because Mr. Miller couldn't remember 
at all what that conversation was about.
    There are other names that have been brought up here today, 
and I would just ask if there are any other names from any of 
the panelists that are appearing before this Committee today? 
Do you have any other names of people that you contacted, that 
you have spoken with, that you have received emails from? Could 
you provide those?
    And I will just start with--say your name one more time for 
me.
    Mr. KOOKOGEY. Mr. Kookogey.
    Mr. REICHERT. Mr. Kookogey. Could you please provide me 
with any names that you could think of of people that you have 
had communication with?
    Mr. KOOKOGEY. Yes. The first agent on my case was Sheila 
May Robinson. Then my case was switched to the desk of Mr. Ron 
Bell, and he was the one who advised me that he was waiting on 
guidance from his superiors as to my organization and other 
similar organizations.
    It was then passed to Mr. Mitch Steele. And then the most 
recent letter, which came as recently as May 6th, was from a 
woman whose name I can't pronounce.
    Mr. REICHERT. Well, we can get it from you later.
    Mr. KOOKOGEY. Thank you.
    Mr. REICHERT. Ms. Belsom.
    Ms. BELSOM. Joseph Herr was the only one, H-e-r-r.
    Mr. REICHERT. Dr. Eastman.
    Mr. EASTMAN. Yeah, we had a couple of investigators from 
the Inspector General's Office that we have been dealing with, 
and I will provide those names to the Committee.
    Mr. REICHERT. Ms. Kenney.
    Ms. KENNEY. Mitch Steele.
    Mr. REICHERT. And other names possibly?
    Ms. KENNEY. Holly Paz comes to mind.
    Mr. REICHERT. Okay.
    Ms. Martinek.
    Ms. MARTINEK. I will provide that.
    Ms. GERRITSON. Robert Choi. I have an ID number for one of 
the workers; I don't have his name.
    Mr. REICHERT. Please.
    Ms. GERRITSON. Ronald Bell, Stephen Seok, Lois Lerner, and 
Holly Paz. And on the last page of my testimony is my timeline, 
and all these names are in there, as well as that ID number.
    Mr. REICHERT. All right. Thank you.
    I yield back.
    Chairman CAMP. Thank you.
    Mr. Thompson is recognized.
    Mr. THOMPSON. Thank you, Mr. Chairman.
    And I want to thank all the witnesses for taking your time 
to be here. It is important that we figure all of this out.
    Ms. Kenney, I want to particularly thank you for your work 
with veterans. Being one myself, I appreciate that very, very 
much.
    And I also wanted to state for the record what I said the 
last time we had a hearing on this: I believe that it is 
outrageous, it is inappropriate, it is wrong, and we must do 
everything that we can do to fix it to make sure that it never 
happens again.
    Ms. Belsom, you--and I probably won't get it exactly 
correct, but you said something along the lines of, this needs 
to be investigated, those responsible need to be held 
accountable for any targeting of conservative groups. I agree. 
But I also believe that any targeting of any group, anybody 
that does that needs to be held accountable. It is important--
--
    Ms. BELSOM. You are absolutely right.
    Mr. THOMPSON. It is important that we hear about these 
abuses. However, we all know that it is bad, it is wrong, and 
we all know that it must never happen again. We know we need to 
fix it.
    So, Mr. Chairman, it is time that we stipulate that this is 
wrong, that it is abusive, that it needs to--it never should 
have happened. And we need to know what we need to do to get it 
fixed. We need to make sure that it never happens to 
conservative groups, we need to make sure that it never happens 
to liberal groups, we need to make sure that it never happens 
to any group.
    The IG's report said that the Cincinnati staff of the IRS 
had questions about the law and how it was to be applied and 
that they weren't given adequate guidance nor supervision, even 
after they asked for it. That is bad management--at its best, 
it is bad management. And I think that the subsequent stories 
we have heard about these staff retreats that the IRS has been 
taking, I think, bolsters that fact, that there is a huge 
problem with bad management in that organization.
    But the truth is we share a little bit of that 
responsibility. We have oversight over that operation. And we 
need to be bearing down to figure out how it is, how in the 
world can you even do that stuff without somebody knowing about 
it, without somebody recognizing it for what it is? The idea 
that you just take your staff and you go off someplace and make 
not even a B-rated film to try to build some sort of better 
staff arrangements? Not one of us could do that in our office. 
This Committee couldn't do that. Why is it that a bureaucracy 
can do that?
    We have a responsibility in this Committee, and I think we 
ought to get to doing our work to make sure that we fix this 
problem. We don't need to hear any more witnesses. We know it 
was bad. It is terrible what you and everybody else had to go 
through. It is terrible when any government entity doesn't do 
their job and puts taxpayers through the ringer. Let's get it 
fixed, Mr. Chairman.
    I yield back the balance of my time.
    Chairman CAMP. All right. Thank you.
    I will now go two-to-one. Dr. Boustany.
    Mr. BOUSTANY. Thank you, Mr. Chairman.
    And I want to thank all of you for being here today and 
providing your testimony.
    Mr. Eastman, how did you find out that your donor list had 
been leaked to the IRS?
    Mr. EASTMAN. It appeared on a website of the Human Rights 
Campaign, which is our principal political opponent.
    Mr. BOUSTANY. So somebody in your organization happened to 
be looking at that?
    Mr. EASTMAN. Somebody called it to our attention. We saw 
that. We saw that there were redactions. This was March 30th of 
2012. Within a few days, our computer forensic people had been 
able to unlayer the redactions, and we saw that it came from 
within the IRS itself.
    Mr. BOUSTANY. Thank you.
    I have on the screen there some documents side-by-side. 
These documents were taken, I believe, from the Huffington 
Post, and one of them has a redaction. Could you explain what 
is going on there?
    Mr. EASTMAN. Sure. These are the Schedule B forms attached 
to our 990 tax returns. Like all nonprofits, we have to make 
public our 990 forms, but the Schedule B, which is the list of 
our donors, is as confidential as our private tax returns.
    The document on the left with the redaction across the 
center is the document that appeared on the website of the 
Human Rights Campaign. The document on the right is that same 
PDF file but with the redaction layer removed. And you see 
across the center diagonally the internal IRS document number 
that is affixed by the IRS computer. At the top of the page you 
see the language, you know, this is a live tax return from the 
internal IRS system, ``For Official Use Only.''
    Mr. BOUSTANY. So this was the first time that you became 
aware of this, in the Huffington Post. And it was taken from an 
adversarial group's website.
    Mr. EASTMAN. Yes. The Human Rights Campaign, which is our 
chief adversary, posted it on their website. The Huffington 
Post and a number of other media outlets then linked to that 
illegally disclosed tax return.
    Mr. BOUSTANY. So, at that point in time, you then went on 
to try to determine what course of action the IRS or Department 
of Treasury was going to take; is that correct?
    Mr. EASTMAN. That is correct. We filed specific requests 
for investigation with the Treasury Inspector General for Tax 
Administration. And because there are felony violations at 
issue here, we filed a request for investigation with the 
Department of Justice Criminal Division, as well.
    Mr. BOUSTANY. And you were stonewalled----
    Mr. EASTMAN. Well, the investigation--I have the full list 
of the TIGTA agents that were involved. They wanted to close 
off the possibility that this had just been leaked by somebody 
internal to our own organization. I think the evidence, the 
document speaks for itself that it came from the IRS. But I 
suppose it is possible that somebody might have asked for a 
copy of our own tax return back and then went to the trouble of 
leaking it. So they wanted to close that door off.
    But once that door closed, that was the last we had heard 
of the investigation. And, as I said, that was the summer of 
2012, almost a year ago.
    Mr. BOUSTANY. But that document with the number on there, 
the IRS number on there, indicates that this came from the IRS?
    Mr. EASTMAN. The IRS' own internal manual specifically says 
that that is put on every tax return automatically for any 
return that gets electronically filed with the IRS. And it is 
not a document that we have in our records, because we of 
course filed the clean version. And once it is filed, that is 
the document that gets ``For Official Use Only'' placed on it.
    Mr. BOUSTANY. And you have not been notified, despite a 
FOIA request and other means of action, you have not been 
notified as to what recourse or actions are being taken as of 
this date?
    Mr. EASTMAN. No. In fact, Federal law requires that we be 
notified if anybody is charged with the illegal disclosure of 
our returns. We have received no such notification.
    Our specific requests tied directly to what is authorized 
to be disclosed to a taxpayer whose returns were illegally 
disclosed: The status of the investigation, the results of it, 
whether the investigation remains open or closed, whether our 
complaints were substantiated or not substantiated. This is the 
language from the regulation itself. We asked for that specific 
information, and we were told we could not have it because any 
result of their investigation was itself protected taxpayer 
information.
    Mr. BOUSTANY. Thank you.
    I have to say, you know, that Ranking Member Levin 
mentioned avoiding speculation, I think, in his opening 
statement. And I could say, and it is pretty evident here, that 
we have seen egregious abuse, intimidation, certainly 
mismanagement, and this cannot be tolerated. It cannot be 
tolerated in our system of government. We have to get to the 
bottom of this. We have to get to the facts of what happened. 
And those responsible will be held accountable under the full--
fully under the law.
    And the other thing that we have to do is we have to 
restore the checks and balances, which provides the opportunity 
for Congress to do legitimate oversight.
    And I have to tell you, Mr. Eastman, this is egregious, and 
we are going to get to the bottom of it. And the IRS can no 
longer withhold this information. We will get it.
    Thank you.
    Chairman CAMP. Thank you.
    Mr. Roskam is recognized.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    You know, the question before us today is, who decides who 
gets to participate in the public square? Is it bureaucrats, or 
is it the American people?
    I am heartened today. And I know that there is sort of an 
ominous feeling about what is going on, but I am actually 
heartened by the example of you six who have come forward, 
because you know what you did? You kept faith in America. You 
kept faith. And no matter how big the swells were, no matter 
how big the storm cloud was, no matter how overwhelming the 
feeling was, you were faithful. And God bless you for being 
faithful.
    And we are here in a country where some of us, we are 
trying to reach out now, and we are all in this together, and 
we are trying to say, look, this is a great country that we 
have, and it is worth celebrating, it is worth defending, it is 
worth articulating these founding values. And I am so deeply 
appreciative of your willingness to keep faith when it was 
overwhelming.
    But, look, history is filled with this story. And it always 
works out well when those who are entrusted with 
responsibility--that is us--listen to the complaints of the 
public, sort out fact from fiction, and then do our work. And I 
am telling you what? Based on your faithfulness, I think this 
comes to a very good end.
    Now, let me tell you a story. An unrelated Federal agency, 
the Federal Election Commission, intervened unfairly in a 1996 
election for the United States Senate in the State of Illinois. 
A friend of mine, former law partner, was the Republican 
nominee, Al Salvi. He was falsely accused of breaking Federal 
law. The Federal Election Commission sued him; the case was 
dismissed. The Federal Election Commission tried to manipulate 
him into paying an outrageous fine. The Federal Election 
Commission kept losing and losing and losing.
    Finally, Al says, ``I would like to speak to the person 
with authority in this case, because surely if they understood 
the facts, they would dismiss this case.'' The person at the 
other end of the phone in charge of enforcement at the time 
said, ``We will dismiss this case if you pledge to never run 
for office again.'' The person at the other end of that phone 
was Lois Lerner. In the words of my son Steve, ``I'm just 
saying.''
    Now, Ms. Martinek, as we are listening and we hear about 
these First Amendment rights of yours, cumulatively, that have 
been trampled, there is something particularly egregious, I 
think, about the first of our first freedoms--that is, our 
freedom to worship, our freedom to avoid government compulsion 
as it relates to matters of faith. And what you have described 
is the long arm of the Federal Government coming in to you, 
coming in to your organization, and essentially telling you, 
we'll tell you what to think, we'll tell you how to pray. 
Heaven help us. Heaven help us.
    This Congress opens on a daily basis in prayer. Moments 
ago, this place opened in prayer. We have prayer groups that 
are honeycombed throughout the Capitol praying for God's mercy 
for this country, praying for wisdom, praying for strength, 
praying for clarity. And we have a Federal agency that comes in 
and tries to get into your business? It is an outrage.
    And so what you are sensing today from those of us on this 
Committee is a sense of real clarity about what is going on. 
This is not about ambiguity in the law. This is not about any 
such thing. This is about abuse of power.
    And so what you have done--and I thank you for doing this--
what you have done is you have lit a lamp and you have clanged 
a bell and you have rallied people around you to make this 
right. And so I know I speak for many on this Committee, we 
will get this right.
    I yield back.
    Chairman CAMP. Thank you.
    Mr. Blumenauer is recognized.
    Mr. BLUMENAUER. Thank you, Mr. Chairman.
    And I, too, appreciate the patience of the witnesses coming 
today and telling their stories.
    I think we are all united in denouncing the treatment that 
you were accorded and especially the disclosure of confidential 
tax information. And I am looking forward to the Committee 
moving forward, as I think everybody has expressed, to get to 
the bottom of it.
    I appreciate our colleague, Mr. Thompson, talking about the 
Committee doing its job, figuring out what we do going forward. 
But part of what is coming clear to me is that there is a 
fundamental flaw in the way that we have allowed a clear 
statute to be modified by a regulation that invites abuse. It 
puts bureaucrats in a position where they can legitimately 
start probing around these questions, and I think that is 
inappropriate.
    Part of the problem I see is illustrated by part of Dr. 
Eastman's testimony, where he talks about his chief adversary 
in their political struggles, the Human Rights Campaign. That 
doesn't sound, I mean, at least in my mind, when we are engaged 
in promoting the common good and general welfare, then somehow 
we are talking about being political adversaries.
    The National Organization for Marriage was established in 
2007 to pass a proposition in California to stop our gay and 
lesbian citizens from marrying the person they love. 
``Promoting social welfare.''
    An internal National Organization of Marriage document last 
year stated the organization seeks ``to drive a wedge'' between 
gays and blacks by promoting ``African-American spokespeople 
for marriage,'' thus provoking same-sex marriage supporters 
into ``denouncing these spokesmen and -women as bigots,'' and 
to interrupt the assimilation of Latinos into ``dominant Anglo 
culture'' by making the stance against same-sex marriage a 
``key badge of Latino identity.'' And none of this has been 
denied by the National Organization for Marriage.
    It has called for portraying President Obama as a ``social 
radical'' and seeking to cast same-sex marriage in a negative 
light, connecting it to issues like pornography. Social 
welfare? I think not.
    It is everybody's right to participate in politics, and 
well you should. But I think having organizations parading as 
being social welfare organizations and then being involved in 
the political combat harkens back to why the statute 100 years 
ago said that they were prohibited and why I wholeheartedly 
agree with my colleague, Mr. Doggett, saying we ought to stop 
this regulation interpretation from 1959 that invites people to 
raise vast sums of money and keep it secret and to engage in 
political activity, and some of it, I think, not necessarily 
promoting the social welfare of our country.
    Everybody ought to play by the same rules. We ought to go 
back to the original intent. We ought to eliminate 
opportunities for bureaucrats in the Internal Revenue Service 
making these judgments about whether it is primarily social 
welfare or not. It shouldn't be involved with politics at all.
    And until, I think, we do our job as a Committee to 
reinstate that original intent, that we overrule that 
regulation, we won't be doing our job completely. Rout out the 
problems, find out who leaked confidential information, make 
sure that this is administered properly down in the ranks of 
the IRS. But let's stop this charade of pretending that these 
are social welfare organizations and admit that they are 
political, treat them as such, and play by the same rules that 
everybody on the Committee plays by when we are involved in 
politics.
    Thank you, and I yield back.
    Chairman CAMP. Thank you.
    Dr. Price.
    Mr. PRICE. Thank you, Mr. Chairman. And I want to thank you 
so very much for continuing this evaluation of what has been 
described during this hearing today as ``chilling,'' 
``shocking,'' ``fearful,'' ``felt betrayed,'' 
``unconscionable,'' ``unbelievable,'' ``frightening,'' 
``intimidating,'' ``using the government as a weapon against 
the citizens.''
    You know, sometimes when we walk out of the Capitol in the 
evening, we have some significant emotion about something that 
has just occurred during the course of that day. I am going to 
walk out today saddened--saddened that we find ourselves in a 
situation where our government is in activity with its citizens 
that results in those adjectives, in those descriptions.
    I want to echo Mr. Roskam's compliments to you all. Thank 
you, thank you, thank you, thank you for your trust and your 
faith in our government and in our system.
    It is that trust that is being eroded, though. And our 
system of government only works if that trust exists. And our 
job is to restore that trust. And your involvement today, your 
participation today, your participation over the past number of 
years will help greatly restore that trust.
    One way to do that, by the way, is to institute fundamental 
tax reform, have an IRS that isn't powerful. How about an IRS 
that just processes a form? How about an IRS that says, you 
have identified what you make, you have identified what kind of 
exemptions may exist, and this is what you owe? And maybe it is 
that simple. Maybe it is that simple.
    Dr. Eastman, I am stunned at the----
    Mr. EASTMAN. As am I.
    Mr. PRICE [continuing]. Magnitude of the disclosure that 
you bring before us today. And I am sorry that I wasn't aware 
of it, the significance of it before today.
    And people have asked you very, very specific questions to 
inform the American people and to inform this Committee. I want 
to ask you about your donors, your donors being listed 
publicly. You mentioned that they were harassed. Put some flesh 
on that. What does that mean? How have the donors been 
harassed?
    Mr. EASTMAN. I can begin with the story of Proposition 8 in 
California. And before I get to that, I really have to respond 
to the scurrilous things that were said on the other side.
    Representative Blumenauer, it is your kind of statements 
that have empowered IRS agents to make determinations about 
which organizations qualify for the public good and which do 
not. The notion that defending traditional marriage doesn't 
qualify as a defense of a public good is beyond preposterous.
    And how sad it is, Representative Doggett, how sad it is 
that efforts to educate about our Constitution have become a 
partisan political issue that you think people ought not to get 
tax-exempt status for.
    Let me go back now to this question.
    Beginning in Proposition 8, people's names were disclosed 
as donors. Their businesses were boycotted. If there was an 
employee at a business, that business was boycotted. They were 
harassed, they were assaulted on the streets, their property 
was vandalized.
    And this has now pervaded across the Nation every time our 
donor list gets disclosed to the point that our donors tell us, 
we are fearful of giving money to you to help support the cause 
that we believe in because our businesses and our families are 
at risk.
    It is the very reason, as I pointed out with Mr. Lewis, 
that NAACP v. Alabama held the constitutional right to keep 
people's names and identities confidential when the risk of 
intimidation rises to the level that it has.
    Mr. PRICE. Dr. Eastman, I would appreciate it if you would 
provide for the Committee some of the specifics regarding that. 
It is absolutely chilling.
    I have a couple other quick questions that I think we can 
squeeze in before the end.
    Ms. Martinek, in what year did you receive the 
questionnaire from the IRS about your prayer gatherings?
    Ms. MARTINEK. In 2009.
    Mr. PRICE. In 2009.
    Ms. Belsom, we are told that the IRS ended their 
interrogations in mid-2012, but that isn't your experience, is 
it?
    Ms. BELSOM. You are talking to me?
    Mr. PRICE. Yes.
    Ms. BELSOM. Yeah, I mean, we turned in everything on March 
5th, I believe, 2013. And we still have----
    Mr. PRICE. In 2013.
    Ms. BELSOM [continuing]. We have heard nothing since then.
    Mr. PRICE. Mr. Chairman, I just make that point, because 
the Inspector General said that the challenges occurred between 
March of 2010 and ended in mid-2012. Clearly, that is not the 
case.
    Chairman CAMP. All right. Thank you.
    Mr. Buchanan.
    Mr. BUCHANAN. Yeah, thank you, Mr. Chairman, for this 
important hearing.
    And I also want to thank all of our witnesses. I applaud 
your leadership in terms of the effort.
    All of us have a different background. I was in business 30 
years, and came here in 2007. One of the things I have tried to 
do is, when I got here, the sense was nobody was listening in 
Washington. So I probably as much as anybody here, I know a lot 
of our colleagues do it on both sides, I do a lot of town 
halls, a lot of meetings, and I started that in 2007.
    And I can tell you one thing with a lot of the conservative 
groups--and I did go to Tea Party groups. I didn't agree with 
anything, and many of the groups didn't want politicians there. 
But the bottom line was they were scared to death of what was 
going on in this country. I heard a lot of those conversations. 
In terms of the debt, the deficit, the stimulus, the TARP, they 
felt and I felt we were going broke as a country. And that is 
why I applaud what you are doing here today and your leadership 
from that standpoint. Because my mindset is, it is very real.
    And the year I came in, we had a $130 billion deficit in 
2006, 2007, in that period of time. That deficit went up to 
$1.3 trillion in 4 years. And I can just tell you, that is what 
brought a lot of the energy. There are different issues, but at 
the core of a lot of these conservative groups, they can do the 
math, and when you go from $8 trillion to $16 trillion quickly 
to $20 trillion--and I heard a lot about that. And I, 
obviously, as a business guy, know in terms of balancing 
budgets; 49 out of 50 Governors have to do it.
    People were very concerned, not just about themselves. More 
importantly, they were concerned about their children and 
grandchildren. Because I represent the State of Florida, and a 
lot of people have done well there in my district, and they 
were concerned about the next two generations.
    Now, that being said, my question is, there is no question 
that you were targeted, harassed, humiliated to some extent. 
But how did that impede your growth to your organizations in 
terms of realizing your full potential when you look at that?
    And I want to start out with Mr. Kookogey. You had 
mentioned it affected one aspect from your standpoint, it 
affected your organization in terms of a donor that could have 
contributed but you couldn't get your paperwork put in in time.
    But what impacts did it have on all of you in terms of 
realizing your full potential as organizations? Can you comment 
on that, please?
    Mr. KOOKOGEY. Sure. As you noted, we were promised a 
$30,000 grant upon achieving status. Because that status has 
taken so long, the organization came to us and said, we will 
have to move that off the books, and when you get status, you 
can reapply.
    This organization also added that it was unbelievable, in 
his mind, in his 25 years of being an Executive Director of 
granting money to all sorts of nonprofits, he had never seen 
anything like this. He had never seen any nonprofit that he had 
dealt with not get through in 2 or 3 months.
    As to the impact, a lot of people know that with a 
nonprofit--remember, I am a (c)(3). It is all about 
establishing trust. If one credible foundation puts money into 
the organization, I can use that then to go to other 
organizations and say, this organization has trusted my 
organization; will you now contribute? Because I could not get 
status, everything effectively stopped.
    And since May 2011, I have been dormant, not only out of 
the inability to raise money, but out of the abject fear that 
the government had a target on my back.
    Mr. BUCHANAN. Ms. Belsom, could you just comment? What 
impact did it have on keeping you or your organization from 
full potential?
    Ms. BELSOM. Yeah. I just wanted to make a couple of quick 
comments before I answer that.
    There seems to be some misconceptions about what a (c)(4) 
organization, as far as--I mean, I am totally outraged by the 
accusation that we are somehow subsidized by the taxpayers. 
People making donations to a (c)(4) organization, that is not a 
tax-deductible amount. We are not getting any money from the 
taxpayers.
    What we are saying is, hey, if we want to have a group of 
people pay dues or make a donation that at the end of the year 
or whatever, that we are not subject to then pay taxes on that 
money again, which has already been taxed when the person 
earned it to begin with. So this is a real outrage, to imply 
that somehow we are taking money from starving children to fund 
our groups.
    You know, that being the case, I can't say that this 
investigation being ongoing for the past 3 years has really 
impeded us because the donations are not tax-deductible. So 
people have donated as they saw fit. And we have just operated 
as if we were a (c)(4) since it has been pending.
    Mr. BUCHANAN. Mr. Eastman, do you want to answer?
    Mr. EASTMAN. Yeah, let me put this in context. In the 
Proposition 8 fight in California, the opposing sides raised 
roughly equivalent amounts of money. But with the disclosure of 
donor lists and the intimidation campaign that has been brought 
and which has highlighted on the disclosure of our donors to 
our (c)(4), the last round of ballot initiatives that were on 
the ballot last November, the pro-traditional-marriage side was 
outspent by more than $20 million, about four or five to one.
    I think the chilling effect that has come from the 
intimidation of donors to the cause of traditional marriage is 
pervasive and is having real consequences on the outcomes of 
elections on that key policy issue that is before the American 
people right now.
    Chairman CAMP. All right. Time has expired.
    Mr. Kind is recognized.
    Mr. KIND. Thank you, Mr. Chairman.
    I, too, want to thank our witnesses for your testimony here 
today. We do appreciate it.
    We have a problem on our hands, and hopefully this 
Committee will be able to move forward in a bipartisan fashion 
to fix it, and fix it as soon as possible. Because if there is 
any true rot at the core of our democracy, it is a pervasive 
feeling that you are being treated unfairly, you are being 
singled out, you are being discriminated against in some 
fashion.
    Listen, I am a former athlete myself, and I wasn't the 
biggest fan of referees on the field, but I knew they played an 
important role in the game. You may not always agree with the 
call that they make, but they are an essential part. And I 
would hope that the answer is as simple as reforming a Tax Code 
that has become antiquated and too complex, that it just 
becomes a processing unit and nothing else.
    But even President Reagan believed in ``trust but verify.'' 
And let's be honest, if we were all angels, we wouldn't have a 
need for government in our lives. But we do need some 
verification. And there is some terminology here that I think 
the IRS is wrestling with. And I think there is an important 
role for this Congress and this Committee to help clarify as we 
move forward to ensure this never happens again.
    I mean, it is a clear difference between an organization 
that is primarily engaged in political activity or one that is 
primarily engaged in social welfare. And I think that is what 
the IRS is struggling with here. Because the Inspector General 
in his report was very clear that he found, based on his 
interviews and the preliminary investigation that took place, 
there was no partisan or political motivation behind what was 
going on.
    Now, there are reports that there were progressive groups 
that were singled out, as well. We were hoping to be able to 
call a witness on our side to be a part of this panel and ask 
them to testify. And we could have called someone from Progress 
Texas, Chicago News Cooperative, Clean Elections Texas, or, in 
addition, we might have called someone from Emerge America and 
its affiliates, who had their tax-exempt applications denied or 
their tax-exempt status revoked.
    In fact, a recent Tax Notes article looked through the 176 
IRS-approved advocacy organizations approved through May 
2013. They took a look at those that were approved. One hundred 
twenty-two of them were conservative organizations; 48 were 
nonconservative organizations. For six there wasn't sufficient 
information to be able to determine between the two.
    But, nevertheless, I think each of you before us today has 
a legitimate cause of concern and complaint. And it is going to 
be our obligation to do a better job of working with an IRS, 
who I also happen to believe is overburdened with a deluge of 
tax-exempt applications over the last couple of years. The 
Cincinnati office was a very small office of roughly nine 
people trying to process all of these applications. And I think 
the criteria that they used was clearly wrong, and we need to 
look into that, why it was used the way it was. But I think 
there is also a question of insufficient resources and 
insufficient staff to deal with the deluge of applications that 
did come in.
    Now, Ms. Kenney, let me ask you whether or not you think it 
would be appropriate for an organization that is primarily 
engaged in political activity to be able to qualify as a 
501(c)(4) organization? Do you think that would be appropriate?
    Ms. KENNEY. I think that your question is hypothetical. I 
can only speak from my own experience.
    Mr. KIND. Well, it is not hypothetical to the IRS, because 
this is a determination they have to make.
    Ms. KENNEY. But you are asking me.
    Mr. KIND. Right. Well, let me ask you this----
    Ms. KENNEY. And I can only--sir, I'm trying to----
    Mr. KIND. Let me ask you, as a witness here today, do you 
in your mind have a clear definition of what is engagement in 
social welfare or what is engagement in political activity? Do 
you have a clear definition in your mind?
    Ms. KENNEY. I can only answer from my own experience since 
I am not a lawyer. My experience is we were obeying the law, 
and our personal group is about education about the political 
process.
    Mr. KIND. And I believe you believe that with all your 
heart.
    Ms. Belsom, let me ask you the same question. Do you have a 
clear definition in your mind----
    Ms. BELSOM. Yes----
    Mr. KIND [continuing]. For what is a political activity or 
what is a social welfare activity?
    Ms. BELSOM [continuing]. I would be glad to answer that. 
You know, I did a Google search of other 501(c)(4) 
organizations, and there were groups such as America Votes, 
Brady Campaign, California League of Conservation Voters, 
Citizens for Tax Justice, Democratic Leadership Council, 
Environment California, Gender Rights Maryland, Georgia Right 
to Life, Health Care for America Now, National Transgender----
    Mr. KIND. But do you have a clear definition in your mind 
of what constitutes political activity or what constitutes a 
social welfare activity?
    Ms. BELSOM. Can you please define ``political'' for me?
    Mr. KIND. I am not doing this to single you out or to 
criticize you in any way----
    Ms. BELSOM. Yes, I know.
    Mr. KIND [continuing]. But it highlights a point I am 
making, that the definition is very subjective. And when you 
have a subjective definition and are asking a Federal agency to 
apply their judgment, you are going to get subjective judgments 
from it.
    And that is why I think, Mr. Chairman, as we move forward, 
we need clear, bright-line rules of these activities, of what 
is allowed and what isn't allowed. And when you don't have 
that, you are going to have instances like this on both sides, 
of groups being singled out for additional questions and 
additional scrutiny. And then the feeling of unfairness sets 
in. And----
    Chairman CAMP. Okay. Time has expired.
    Mr. KIND [continuing]. At the core, that is really what we 
are wrestling with here.
    Chairman CAMP. Yes. I do want to note that the Minority was 
given the opportunity to call a witness but did not present a 
witness that had been affected by taxpayer activity--by IRS 
activity. So that is why there is no Minority witness at the 
table today.
    Mr. KIND. Thank you----
    Chairman CAMP. They were given that opportunity. I just 
want to make sure the gentleman understood that.
    Mr. Schock is recognized.
    Mr. SCHOCK. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    Boy, the American people are being led to believe you guys 
are big muscles of political strength that are being subsidized 
by taxpayers and have some unfair advantage over, perhaps, 
those who share a different belief than you.
    So, for the record, perhaps these Tea Party groups might 
share. Ms. Belsom, Ms. Kenney, and Ms. Gerritson, could you 
tell us roughly what your annual budget is?
    Ms. BELSOM. Sure. Let's see. In 2010, our budget was 
$2,453.
    Mr. SCHOCK. Your budget was $2,453 for the entire year.
    Ms. BELSOM. Yes.
    Mr. SCHOCK. Okay.
    Ms. BELSOM. In 2011, it was $3,371.
    Mr. EASTMAN. That is a 50 percent increase.
    Ms. BELSOM. And in 2012 we did get a grant from Tea Party 
Patriots that enabled us to promote our organization, so we did 
have approximately $9,000 that year.
    Mr. SCHOCK. Wow, $9,000. Okay.
    Ms. Kenney.
    Ms. KENNEY. Forgive me for laughing. Our annual budget is 
in the negative.
    Mr. SCHOCK. Uh-oh. Are you a Democratic organization?
    Ms. KENNEY. The first year, we had a minus $1,300. The 
second year, I don't remember. That was from legal fees to 
actually begin the process of filing for a 501(c)(4) and other 
types of activities.
    Mr. SCHOCK. So, basically, the harassment and illegal 
questions that you were asked caused your organization to 
deficit-spend to try to defend its constitutional right and 
equal protection under the law?
    Ms. KENNEY. Yes, because it also dried up our ability to 
have people participate in a structure where they could donate.
    Mr. SCHOCK. Thank you.
    Ms. Gerritson, how about your budget?
    Ms. GERRITSON. Well, I don't have the exact numbers, but I 
can tell you that we have less than $5,000 at the end of each 
month, roughly. One year, when we took a big bus trip to 
Washington, we had $18,000 at one time in the bank, but as soon 
as we paid for the bus, that balance went down. But we usually 
run under $5,000.
    Mr. SCHOCK. So, roughly, you could say it has never been 
over $50,000.
    Ms. GERRITSON. Oh, goodness, no.
    Mr. SCHOCK. So you can understand the outrage by Members of 
this Committee for the apparent double standard that Members on 
this Committee seem to have for their frustration, outrage, 
opposition to groups who seek 501(c)(4) and 501(c)(3) status 
who may be on the opposite side of your issues and who we know 
have organized and raised far more sums than all of you 
collectively.
    One group in particular we know about is Organizing for 
Action, a group organized by the President's own men, political 
advisers, which to date we know has raised in excess of 
millions of dollars. And I am just going to read on their 
website what they say their mission is: ``Organizing for Action 
is a nonprofit organization established to support President 
Obama in achieving enactment of his national agenda.''
    Now, I would humbly ask my colleagues on the other side of 
the aisle, is that political? And why would an organization----
    Mr. NEAL. Would the gentleman yield?
    Mr. SCHOCK [continuing]. Called Organizing for Action----
    Mr. NEAL. Would the gentleman yield?
    Mr. SCHOCK. No, I will not.
    Mr. NEAL. What did you ask the question for, then?
    Mr. SCHOCK. Mr. Neal, go ahead.
    Chairman CAMP. The gentleman from Illinois has the time.
    Mr. SCHOCK. Go ahead.
    Mr. NEAL. Are those names disclosed?
    Mr. SCHOCK. Are what names disclosed?
    Mr. NEAL. The names of the President's committee. Are the 
contributors disclosed?
    Mr. SCHOCK. I am not aware of whether they are or----
    Mr. NEAL. Let me be on record as saying those names should 
be disclosed.
    Mr. SCHOCK. Okay. But we are not having a debate about 
whether or not we agree with Citizens United. We are not having 
a debate about whether or not we want to change 501(c)(3) or 
change 501(c)(4) processes. I would submit to you that if that 
is your goal, perhaps you should introduce legislation to do 
so.
    The problem is that this IRS agency has discriminated 
against people based on their political views. And for anyone--
--
    Mr. MCDERMOTT. Order, Mr. Chairman.
    Mr. SCHOCK [continuing]. For anyone to defend----
    Chairman CAMP. Regular order.
    Mr. SCHOCK [continuing]. This bureaucracy from 
discriminating against people----
    Chairman CAMP. Will the gentleman suspend?
    I will have to ask our guests and the Committee to refrain 
from applause and other displays of emotion or attention. We 
need to keep decorum in the Committee. So I would respectfully 
ask that our Members refrain from clapping and cheering.
    Mr. SCHOCK. Thank you, Mr. Chairman.
    Chairman CAMP. You may proceed.
    Mr. SCHOCK. For anyone to suggest that these individuals' 
rights should be limited more so than others' simply because of 
their political beliefs is nothing more than discrimination. 
There would be clarity if this was an issue of white versus 
black, of Jews versus Christians. But because it is 
conservative versus liberal, there seems to be some question, 
some cloud, some lack of clarity.
    And rather than work united in a bipartisan way to rout out 
the very cancer that my colleague, Mr. Rangel, described, we 
are simply trying to chop off the head of the patient, remove 
the Acting Commissioner, and say all is well. We need to get to 
the bottom of this, we need to identify the cancer, and this 
needs to be removed from this organization.
    I yield back.
    Chairman CAMP. Mr. Paulsen is recognized.
    Mr. PAULSEN. Thank you, Mr. Chairman, also for holding this 
hearing.
    And I just really want to thank all of you for taking the 
time to testify. It is really a tragedy that you have to be 
here today. I want to commend you for being here today. You 
shouldn't have to be here, no citizen should have to be here 
defending their constitutional rights. And, obviously, you have 
shared the stories about how your rights have been violated.
    And so I just think you are brave. I mean, you are brave 
for being here. Listening to the emotion in your testimony is 
very real, not just because you are nervous about testifying in 
front of a congressional committee, I imagine, but probably in 
the back of your mind you probably can't help but be a little 
bit angry or even fearful about sticking your neck out a little 
bit more and being a target, having a larger target on your 
back, potentially.
    This is not a mistake by the IRS, as some have mentioned 
today. This is not poor customer service, as the Acting 
Commissioner Miller testified just a few weeks ago. This abuse 
was systemic. And it has been going on for years. And we know 
it is systemic because of the number of groups that were 
targeted. We know it is systemic because of the number of 
individuals that are involved--IRS workers that have been named 
as a part of your testimony that we will also be able to 
further interview and get information from. And the larger 
question now is, who helped direct this activity? And Lois 
Lerner is obviously refusing to even answer questions.
    Mr. Kookogey, if I could just ask----
    Mr. KOOKOGEY. Kookogey.
    Mr. PAULSEN. Kookogey. I apologize. If I could just ask you 
a question, because you testified that, back in December of 
2011, you had made numerous and repeated calls to the IRS which 
went unreturned, and then finally you did reach an agent. I 
think you said it was Ron Bell.
    Mr. KOOKOGEY. Yes.
    Mr. PAULSEN. You reached that agent in Cincinnati. You 
inquired of him about why the application was taking so long. 
And he said he had been waiting for guidance from his 
superiors.
    Mr. KOOKOGEY. From his superiors.
    Mr. PAULSEN. Can you just comment? I mean, who do you think 
his superiors would have been? You mentioned it wasn't someone 
just down the hall. That is sort of the feeling you got.
    Mr. KOOKOGEY. Yes, although he didn't indicate exactly 
where it was. And I believe--am I correct that these IRS calls 
are recorded? So we could probably find out if he did, indeed, 
specify. At least, that is what I remember. Every time I called 
the IRS, it said, ``These calls may be recorded.'' So I think 
my conversation with Mr. Bell may, indeed, be recorded.
    But what I remember him saying was, we have been waiting on 
guidance from our superiors as to your organization and similar 
organizations. He did not say where it was coming from, but it 
was clearly implicit that it wasn't down the hall. Whether it 
was from Washington or some other office, he had been waiting a 
long time. It wasn't just a matter of putting me on hold and 
going to talk to someone else.
    Mr. PAULSEN. Right.
    And, Ms. Martinek, I believe you made some comment about 
conversations with IRS workers who were working with some of 
their superiors, as well?
    Ms. MARTINEK. That is correct. Ms. Richards did tell me on 
at least two different occasions that she would have to put me 
on hold and she would check with her superior, or superiors, to 
answer the question that I was asking her.
    Mr. PAULSEN. Well, your testimony is going to help us get 
down to the facts so we can actually figure out who was 
directing this targeting.
    Ms. Belsom, I was going to ask you a question, because we 
did hear from the Inspector General as a part of the audit in 
March of 2010. That is apparently when the targeting actually 
started and went forward. But we were told by the Acting 
Commissioner, Acting Commissioner Miller, that all of that 
targeting activity stopped in June of 2012.
    Have you continued to receive any correspondence from the 
IRS regarding the status of your application----
    Ms. BELSOM. No.
    Mr. PAULSEN [continuing]. Since June of 2012?
    Ms. BELSOM. Yeah, I mean, I didn't get the letter--I mean, 
I heard nothing, basically, until September of 2012 when we got 
the letter with the whole list of questions.
    Mr. PAULSEN. After June of 2012, you have continued to 
receive information----
    Ms. BELSOM. Right.
    Mr. PAULSEN [continuing]. From the IRS regarding the 
status.
    Ms. BELSOM. Right.
    Mr. PAULSEN. Well, Mr. Chairman, the other issue I think 
that we will continue to have questions about is the whole 
concept of donors, because we have just scratched the surface, 
I think. And Dr. Eastman has testified, but I had a 
conversation with a donor in my State who has been a 
contributor to certain political causes and has been fearful of 
stepping out and voicing his concern about some of these 
activities, but now he is being more emboldened. And I am 
thinking we are going to hear from some more donors down the 
road, Mr. Chairman, as this investigation continues.
    And I yield back.
    Chairman CAMP. Mr. Pascrell.
    Mr. PASCRELL. Thank you, Mr. Chairman.
    Thank you, Mr. Levin.
    I think it is critical that this Committee continue its 
investigation into what we all agree--let's make that clear. 
There are those on the panel here, apparently--not the panel, 
excuse me; thank you, panelists--but on our side of the room 
that have tried to divide--some of us have tried to divide us 
into, ``Those folks don't really want to clean up the IRS like 
we folks do.'' And that is a typical propaganda game, and I 
understand it.
    I want to stress your attempt at bipartisanship, Mr. 
Chairman. I think Democrats and Republicans both recognize that 
the IRS flagging applications is wrong. And we have a shared 
interest in working with you in a bipartisan way to find out 
what really happened and to fix it.
    I mean, if we are the problem, if we hadn't clarified what 
the tests should be for these organizations, it is not the 
organizations, it is we that are at fault, and we need to 
change the test to see if that organization qualifies. But you 
ask everybody; you don't ask a few. So we agree on that.
    We don't need unsubstantiated, politically motivated, and 
irresponsible accusations against one another. We have to look 
at where the facts are. No one has a God-given right to a tax-
exempt status. And none of the panelists said that they--that 
was contrary to that.
    The laws governing tax-exempt organizations and 501(c)(4)s 
were created by Congress. It is us. If we have been derelict, 
then we have to change what the laws are, period. And for us 
not to change the law would mean that this could happen with 
facility down the road to all kinds of issues and all kinds of 
groups advocating those issues.
    So I think we need to focus on writing clear rules. And 
should it be a test based on how much money you spend? Should 
it be time-based? After this debacle, we can't afford not to be 
specific.
    So I have some questions for the witnesses.
    Mr. Eastman, Chairman of the National Organization for 
Marriage, I believe, correct, sir?
    Mr. EASTMAN. Yes.
    Mr. PASCRELL. Why did your organization not choose to 
become--and you don't have to answer this, but I am curious. 
Why did you choose not to become a 527 organization under the 
tax laws?
    Mr. EASTMAN. Because that is not what we do under our 
organization. When we get particularly involved in political 
campaigns or those that support our cause, we set up political 
action committees, as is required by the law, and pursue that 
route. When we are pursuing purely educational functions, we 
use that through our nonprofit educational foundation, a 
501(c)(3). And for the activities that the Tax Code sets out as 
compliant with 501(c)(4), we operate those activities under the 
501(c)(4) organization.
    Mr. PASCRELL. You and I both realize that if you are a 527, 
if you declare that, if you apply for that, that means your 
donors have to be what?
    Mr. EASTMAN. As is, a political action committee, and----
    Mr. PASCRELL. Right.
    Mr. EASTMAN [continuing]. We do disclose those donors. For 
nonpolitical activity that we engage in from NOM itself, we 
follow the same rules that everybody else follows.
    Mr. PASCRELL. And so your organization chose to become a 
501(c)(4).
    Mr. EASTMAN. This particular one did. That is right.
    Mr. PASCRELL. That organization has, like all other 
organizations in that particular category, a test to go 
through. In other words, when you make an application, you have 
to comply with what are some stupid questions; we would both 
agree to that. But, in the final analysis, that is information 
given to the IRS to determine whether you are eligible for that 
exemption. Is----
    Mr. EASTMAN. That is correct.
    Mr. PASCRELL [continuing]. That correct, sir?
    Mr. EASTMAN. Yes.
    Mr. PASCRELL. Now, some of the questions are going to go to 
that thin line we talked about before, and that is, what is 
political and what is not political? And many times that is a 
tough question, isn't it?
    Mr. EASTMAN. Well, the law oftentimes is clear. And there 
is no contention that has ever been made that our activities 
under the 501(c)(4) are not appropriate for a 501(c)(4). We 
have our 501(c)(4) status----
    Mr. PASCRELL. Well, you are an issue-oriented organization. 
You have every right to profess what you believe in.
    Mr. EASTMAN. That is right, and to have our donors' 
confidentiality protected, as the law provides----
    Mr. PASCRELL. But isn't there a question, when it gets down 
to it--and we agree so far--when you are going to express that 
issue, in what you believe in, and doing something overtly to 
demonstrate where you feel you are right and where this other 
organization, whatever it may be, is wrong? Doesn't it get to 
be a question of, is this political or not? I mean, your 
politics are different than my politics, and what is political 
to you may not be political to me. That is a tough question.
    Mr. EASTMAN. I don't think----
    Chairman CAMP. If you could answer briefly because time has 
expired.
    Mr. EASTMAN. I don't think it is tough at all, that when we 
engage in the very same activity that the Human Rights Campaign 
engages in----
    Mr. PASCRELL. I'm not defending--excuse me, sir.
    Mr. EASTMAN [continuing]. That our donors are disclosed and 
theirs are not. It is a felony, what happened to us. No such 
felony occurred against them. And it is not being prosecuted.
    Mr. PASCRELL. But, Mr. Eastman----
    Chairman CAMP. Thank you. Time has expired.
    Mr. PASCRELL [continuing]. No one has inferred----
    Chairman CAMP. Mr. Pascrell.
    And now we will recognize Mr. Marchant for 5 minutes.
    Mr. MARCHANT. Thank you, Mr. Chairman.
    I have a letter today that I would like to put in the 
record from the Northeast Tarrant Tea Party. Their treasurer is 
a gentleman that has been a CPA for 40 years, and his primary 
practice was in helping tax-exempt organizations receive their 
501(c)(3) or (4).
    Chairman CAMP. Okay. Without objection.
    [The submission of The Honorable Kenny Marchant follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
                       ________________
                       
    Mr. MARCHANT. He states in his testimony, which I have 
here, that he was subjected exactly to the same scrutiny that 
Ms. Belsom was, Ms. Gerritson, and Ms. Kenney.
    After 15 months, he received a questionnaire that had 110 
questions on it. He states that unequivocally this was the most 
complicated questionnaire he had ever received in response and 
very quickly ascertained that this organization was being 
targeted specifically because of their beliefs.
    They were asked questions about True the Vote. They were 
asked questions about their affiliation with training sessions. 
They were asked for lists of names. All of you have received 
very, very similar questions. So it is happening to all of us 
in all of our districts.
    A year ago about this time, I wrote a letter to the Acting 
Commissioner asking if this was actually going on. He wrote a 
letter back and said it was not. And then Mr. Joseph Grant 
wrote a letter back and said this was not going on. Just as 
recently as a few weeks ago, we questioned the Acting 
Commissioner, who still said that this was not going on. When 
we finally pinned him down on the questions, he basically said, 
well, it actually was going on, but you didn't ask the question 
the right way. And, basically, they had lawyered up.
    So, since then, I would like to walk you through a little 
bit of what has happened. And it has happened as a result of 
the fact that across the Nation each one of you and each one of 
the groups in all of our districts have contacted their 
Congressman, and this Committee has began a year ago to act on 
this, on this suspicion.
    And what this Committee has been subjected to is really a 
conspiracy of arrogance. When this Committee swears in 
witnesses, we expect them to tell the truth. And when you write 
a letter to the IRS Commissioner and he writes you a letter 
back and says it is not happening, you have to operate on some 
premise of truth. And this Committee has been subjected to 
untrue statements, and they have been put in writing.
    Commissioner Shulman, retired and resigned. Acting 
Commissioner Miller, fired, then retired or resigned. Joseph 
Grant, resigned. Lois Lerner, she has taken the Fifth 
Amendment, and is now on administrative leave. And just 
yesterday, newly named Commissioner, not yet confirmed, Werfel, 
his most common answer to the Committee yesterday was he did 
not know, he was not aware, and he would have to get back to 
them. Now, this Committee has heard a lot of that, especially 
from Ms. Lerner, in the last year.
    The question I would like to ask each of you is, what do 
you think the IRS Commissioner should do once this Committee is 
successful in exposing everyone at the IRS that orchestrated 
this policy?
    Mr. Kookogey.
    Mr. KOOKOGEY. I think it is conjecture--I don't think it is 
appropriate for me to determine what the IRS Commissioner 
should do. I can only speak for what I would like to see done 
with regard to the whole matter, and that is to get to the 
truth, and if there is criminal activity, that we have the 
moral courage to pursue it and not merely to politicize it and 
have them say, okay, we will just apologize. Because we, as 
taxpayers, if we fail to pay our taxes, we get criminal 
penalties. And so it is not acceptable for the IRS to just say, 
oh, I am sorry.
    Ms. BELSOM. I feel like----
    Chairman CAMP. I am going to have to ask everyone to answer 
very briefly because we are out of time.
    Ms. BELSOM. Okay.
    I would like to see a huge transformation of the whole way 
taxes are done.
    And as far as, you know, I feel like, as a person concerned 
in my community, if I want to start an organization and work to 
educate citizens and have candidates in to speak and vet 
candidates, that sort of thing, I shouldn't need to have to 
worry about paying any taxes on money collected from dues. We 
are not funding any political candidates.
    And I just think--I don't want to be involved with the IRS. 
The IRS is a nightmare. And I would like something done to 
reduce the average citizen's aggravation in having to deal with 
the IRS. We need to get rid of the tax system that we have and 
go to something much simpler, like a fair tax.
    Chairman CAMP. All right.
    Briefly.
    Mr. EASTMAN. In addition to the felony charges on our 
particular issue, I think you need to hold individuals 
responsible and with civil liability to the taxpayers whose 
disclosures were done so that they can pursue it even if the 
Department of Justice won't.
    Ms. KENNEY. The answer is the rule of law must be followed. 
And if it is violated, it must be remedied, either civilly or 
criminally or both. Thank you.
    Chairman CAMP. Thank you.
    Ms. MARTINEK. The IRS needs to uniformly process their 
applications without offending any of the First Amendment 
rights.
    Chairman CAMP. All right.
    Ms. GERRITSON. I will make it easy and ditto what Mr. 
Kookogey said. But just firing a few people will not fix the 
problem. Just like Mr. Rangel said, it is a cancer inside the 
agency, and it has to be routed out from the bottom up.
    Chairman CAMP. All right. Thank you.
    Ms. Black is recognized.
    Ms. BLACK. Thank you, Mr. Chairman.
    And thank all of you for being here today.
    Mr. Kookogey, thank you for representing Tennessee. But we 
know that we have other groups there, such as the Chattanooga 
Tea Party and the Roane County Tea Party, that could likewise 
give similar testimony.
    So we really appreciate you all being here today.
    I think prior to the exposure of what has just most 
recently happened in the IRS, if we were to ask the American 
people about their impression of the IRS, I think we would hear 
the words ``fear,'' ``powerlessness,'' ``intimidation,'' maybe 
``distrust.'' And those are words that would have been used 
prior to this, but I think what has now happened has confirmed 
that.
    And it certainly is a sad day for our country, where our 
Founding Fathers set up those Bill of Rights to ensure us that 
we wouldn't have a government that would intimidate the very 
citizens of the country. And so it is a really, really sad time 
that we have come to this point where we have actually 
confirmed what many people would have said prior to this.
    If I could ask the staff to bring up one of the pieces of 
information that is in our files here.
    Mr. Kookogey, I bring this up because this comes as a 
result of a question that was asked of you. And this is 
question number 24 on your questionnaire, where they actually 
ask you the names of those students that you would be 
educating.
    Can you give me any thought of why this would be of 
particular interest in order to establish your 501(c)(4) 
status?
    Mr. KOOKOGEY. No, not--it is stunning. It is unbelievable. 
I can't give an answer. I have been thinking about it for 29 
months, as to why they would want to know the names of 7th-
graders that I am teaching Western civilization, political 
philosophy, and the basic theories of economics. Why in the 
world would the IRS want to know the names of these students, 
but for perhaps intimidation of them and their parents, to 
discourage them from being taught under my tutelage.
    Ms. BLACK. It is certainly very chilling, something we 
wouldn't expect here in the United States. We would be looking 
at some communistic countries if we were to think about this 
kind of activity.
    One of my colleagues said that none of you were silenced. 
And what I would like to know--and maybe we can start over here 
with you, Ms. Gerritson--do you feel that what was occurring 
here in both the intimidation and not getting the status, did 
it silence you?
    Ms. GERRITSON. Well, obviously, I am here, so, no, it 
didn't silence me.
    Ms. BLACK. I mean, your group, did the intimidation and not 
getting the status silence you in being able to do what your 
group was intended to do?
    Ms. GERRITSON. Oh, I was going to say I do have members 
that have come up to me and that are fearful. They don't want 
to write their name on any sign-up form that we may have. I 
also have people emailing me that they are getting audited for 
the first time ever, and they gave during the campaign. So I 
can't put a number on how it has hindered our organization, but 
it has because people have told me it has.
    Ms. BLACK. Ms. Martinek.
    Ms. MARTINEK. We have not been silenced, but if we didn't 
have accessibility to the Thomas More Society and attorneys, we 
may have been.
    Ms. BLACK. So you had some folks there to help you out.
    Ms. GERRITSON. And I would agree, had we not had the ACLJ, 
we couldn't have fought the government.
    Ms. BLACK. Thank you.
    Ms. Kenney.
    Ms. KENNEY. We are not silenced, but there is a fist and a 
hand over our mouth because our educational opportunities to 
everything from creating brochures or pamphlets on the 
Constitution to buying such things as bookmarks that educate 
people about the Constitution, that has been limited, to the 
postcards on getting voter information, that has been 
constricted because we simply don't have the funds.
    Ms. BLACK. Thank you.
    Mr. Eastman.
    Mr. EASTMAN. You know, my nature is not to be silenced by 
anything, but the number one comment I get every time we do 
something like this is, ``Thank you for standing up for us; you 
must be very brave.'' And I don't think it is brave; I think it 
is citizenship duty that we stand up every chance we get.
    Ms. BLACK. Ms. Belsom.
    Ms. BELSOM. I feel like if we don't speak up now, that time 
may be lost. So I am doing my best to speak up. But without the 
ACLJ and the knowledge of the other groups being targeted, I 
really am not sure what would have happened. There was a time 
when I was just ready to say, ``Forget this whole thing.'' It 
is very chilling, and I just think that----
    Ms. BLACK. My time is running out. The point that I want to 
make here, because I know that it is going to come really 
quickly, is that your First Amendment rights are being violated 
here.
    Mr. Kookogey, do you want to just, for the rest of the time 
I have left----
    Mr. KOOKOGEY. Yes. Whether or not it is chilling, I think 
was even evidenced today, because some of the Democrats on this 
Committee actually implied that what is social welfare to them 
is social welfare. But what might be social welfare to us is 
somehow negotiable.
    Ms. BLACK. Thank you. I yield back.
    Chairman CAMP. Thank you.
    Mr. Young is recognized.
    Mr. YOUNG. Thank you, Mr. Chairman.
    Since the issue of groups being targeted by the IRS has 
come to light, I am continually encouraged--everyone I speak 
to--to let the facts lead us to wherever they may.
    We don't want to draw premature conclusions. Follow the 
facts. The more facts we have learned, including in this 
hearing, the more concerned I get that there is some organized 
effort to stifle conservative political activity.
    Given the pattern of intimidation and obstruction we have 
seen from the IRS, I at least understand why some are ready to 
jump to firm conclusions. But perhaps what is most frustrating 
to me is we still need so many answers, answers that we are not 
getting from some of the higher ups and from others that 
represent us in our Federal Government.
    While we wait for those answers, far too many Members of 
Congress in polemicists masquerading as journalists suddenly 
downplay the gravity of this situation. We hear that time and 
again. And then they draw conclusions of their own.
    These are conclusions, incidentally, that don't seem to 
jive with the facts that we already know. We have heard, for 
instance, that the real problem is groups applying for tax-
exempt status that engage in political activity. The problem is 
the groups.
    But groups of every political persuasion do this; they 
apply for this tax-exempt status. So why is it that every Tea 
Party group that applied for 501(c)(4) status was targeted? Why 
did an approval subsequently take years longer than many of 
their progressive counterparts? I want to know. The people want 
to know. Why were pro-life groups and groups in support of 
traditional marriage targeted but not pro-abortion and marriage 
equality groups treated similarly?
    It has been more than suggested--suggested here in this 
hearing--that this is really about Citizens United and about 
501(c)(4) groups and their undisclosed donor lists. I think 
some of my colleagues have helped disabuse us of that notion. 
But I want to know why were groups filing for 501(c)(3) status, 
like some of those here today, asked inappropriate questions 
like the content of their prayers? Why were 501(c)(3) 
applicants left in limbo if this is about the abuse of 
501(c)(4) status?
    Lastly, we have heard that this is about organizations 
trying to game the system. But if it is about organizations, 
why was the IRS so concerned about individual donors to these 
organizations? Why in the months prior to a major Federal 
election did donor information for conservative groups and 
candidates get illegally released by the IRS? We want to know 
the answer to that question. Why did donors to conservative 
candidates get targeted with threatening communications trying 
to suppress their political donations? All of this is extremely 
troubling and, of course, we need more answers.
    Sadly, those who can tell us the most would rather plead 
the Fifth Amendment than help us get to the bottom of these 
things. This must never, ever happen again. We need to ensure 
that safeguards are in place, as others on both sides of the 
aisle have said, so that our executive branch cannot nurture or 
give license to a culture or a subculture of intimidation 
within our Federal agencies.
    And, finally, we need to punish those who violated our 
trust. You know, I am looking forward to that day when we do 
prosecute, Dr. Eastman, those who are responsible for acts that 
may well need to be prosecuted as more facts come in. You 
indicate that you already have those facts on hand. Let's hope 
that those facts are presented before a court of law and that 
proper action is taken.
    We have an Indiana Tea Party group that waited for a number 
of years for their 501(c)(4) application to be approved. They 
decided not to answer the IRS' inappropriate questions. They 
finally received a denial of their 501(c)(4) status. However, 
just a few days later, after being denied, they were approved. 
Curious behavior. I want to know if any of your groups had a 
similar situation, where you were approved just days after 
being denied.
    Mr. KOOKOGEY. No. I am actually still waiting for status 
after 29 months.
    Ms. BELSOM. I am still waiting after almost 3 years.
    Mr. EASTMAN. We were approved prior to 2008.
    Ms. KENNEY. I withdrew my application.
    Ms. MARTINEK. We were approved 1 week after the request for 
a letter was given to us. Once our attorney sent in her letter, 
I guess it was 1 week after that that we actually were 
approved. So they didn't actually deny us, but they acted very 
quickly once we had legal help pointing out their request being 
illegal.
    Mr. YOUNG. Ms. Gerritson.
    Ms. GERRITSON. No. It was 600 and something days, but we 
finally were approved. We were never denied.
    Mr. YOUNG. Thank you. I yield back.
    Chairman CAMP. Thank you.
    Mr. Kelly is recognized.
    Mr. KELLY. Thank you, Chairman. And I thank you all for 
being here.
    I went through a similar situation. I was an automobile 
dealer. My dad started the business in 1953 after coming back 
from the war--a little one-car showroom, but four service bays, 
so you can imagine my shock in 2009 when all of a sudden, one 
of my franchises was being taken away--not because I didn't 
know how to run it, not because we didn't meet the metrics it 
requires, because the government made a decision, you know 
what, Kelly, you are no longer going to be in business. So I 
went through a process and got the dealership back.
    But there is something wrong here. There is something 
wrong. This is truly a David v. Goliath. I think it is Edmund 
Burke that said that all that is necessary for the triumph of 
evil is for good men to do nothing.
    I thank you for coming here today. And I hope by your 
appearing here today that you have encouraged other people 
throughout the country to come forward, that you do not have to 
be afraid of this government. The fear only exists if you allow 
it to continue. Don't let that happen to you.
    I traveled through the district last week. I can't tell you 
the number of people that came up to me and said, you know 
what, I would like to say something, but if you use my name, I 
am afraid they are going to come after me. My God, is that what 
we have come to?
    I was in a Decoration Day--I call it Decoration Day. I know 
it is Memorial Day now, but I call it Decoration Day because it 
is about decorating the graves of our veterans, our war dead. A 
guy by the name of Bill Kumpf came up to me afterwards, and he 
said, ``Mr. Kelly, can I talk to you?'' I said, ``Sure, Mr. 
Kumpf, what is it?'' He said, ``You know, we were denied our 
status. Now, here is the problem with this.'' I said, ``Really, 
what happened?'' Well, some kind of certification was the 
problem. But here is his fear: He goes, ``But I am wondering 
now if it is because this Penn Township Veterans Association is 
made up mostly of Republicans, that maybe we are targeted?'' 
Now, think about that. We have talked about chilling. This is 
not chilling. The American people are frozen with fear. We have 
gone far beyond being chilling. We have exceeded; we have gone 
way over what this government is supposed to be able to do. And 
I have to tell you, when I talk to you all and see you here and 
understand what it is you are going through, you don't have big 
budgets to work with. Somebody was talking about the stall 
tactic. That can keep you on the sidelines forever.
    Mr. Kookogey, what kind of legal fees have you built up?
    Mr. KOOKOGEY. I have my own legal fees because I am an 
attorney, so I have done everything quid pro quo. I have done 
it all on my own. And the ACLJ represents us obviously as a 
nonprofit.
    But that does not mean I don't have countless other 
expenses. I have been funding, by loans to an organization that 
I assumed one day would be granted tax-exempt status, 
countless--I mean, $30,000, $40,000, $50,000 of my own money, 
just trying to wait 
for this day, this inevitable day, that the IRS would grant me 
tax-exempt status.
    Mr. KELLY. You would get your day in court.
    Ms. Belsom, you have built up some costs?
    Ms. BELSOM. The ACLJ is representing us for free.
    Mr. KELLY. Okay. Dr. Eastman.
    Mr. EASTMAN. Hundreds of thousands of dollars in legal fees 
we have incurred trying to protect our donors and fight the 
nonsense that has been going on against us.
    Ms. KENNEY. Meeting costs, legal costs, yes, and other 
things to run our group, such as speakers' fees, money to get 
the good trainers out and the good organizational people and 
spokespeople out, yes.
    Mr. KELLY. Ms. Martinek.
    Ms. MARTINEK. The Thomas More Society has taken the 
responsibility of our financial expenses.
    Ms. GERRITSON. And the ACLJ is representing us, so we 
haven't had to pay our own costs.
    Mr. KELLY. Isn't it incredible what you are going through 
to maintain your First Amendment rights? And I will just tell 
you, this is not a problem that is in Cincinnati. This is a 
problem that is deep in the bowels of this government. And if 
there is some point that we cannot stop this culture of fear, 
this government-sponsored fear, then we are really coming up 
short on what the oath is that we took. And we didn't take it 
for the Republican Party. I am so sick of hearing about, oh, it 
is about Republicans or Democrats. This is about America. This 
is basically who we are. We took an oath of office not to 
defend the rights of Republicans or Democrats or Libertarians, 
or those that just want to live here and just be left alone; we 
took an oath to defend our Constitution.
    So I really applaud you for what you are doing today. Do 
not give up on this because I think the idea of if you can 
stall them long enough, if you can drive their costs high 
enough--it cost me $60,000, by the way, in legal fees to get my 
dealership back. And I was told by a Member of this Congress, 
``Well, the system allowed you to get it back.'' I said, ``Oh, 
my goodness. So I was able to get back what the government 
stole from me; isn't that a novel idea?''
    So thank you for what you are doing. Stay the course. Do 
not give up. And please, spread the word to the rest of the 
American public: Do not be afraid of this government. It is 
only when we fear the government that we lose. This is a 
government that is supposed to serve the people; the people are 
not supposed to serve it. So keep up the fight. We are with 
you, and we have your back.
    Thank you, Mr. Chairman.
    Chairman CAMP. All right. Thank you.
    Mr. Griffin is recognized.
    Mr. GRIFFIN. Thank you, Mr. Chairman.
    Thank you all so much for being here today. It reminds me 
of the somewhat famous quote that a government big enough to 
give you everything you need is powerful enough to take 
everything you have. That sort of goes to your quote earlier 
when you were talking about the government culture that we are 
dealing with here.
    I think what we have seen described here and in the 
previous hearing is a distant, ever-growing, almost unlimited 
Federal Government that, in many instances, means well, but is 
unresponsive to people that live thousands of miles away. And 
the bigger it grows, the less accountable it is. And I think 
this is another example of that.
    I want to clarify a couple of things. There have been a lot 
of facts thrown around, and there are a lot of myths as well. 
First of all, there was no surge in 501(c)(4) applications in 
2010. We have heard--I know some people get talking points, and 
they read them, and they don't really know what they mean. But 
the Washington Post and the Atlantic and many others have 
reported there was no surge in 501(c)(4) applications in 2010. 
It just didn't happen.
    And we are not just talking about (c)(4)s, as Mr. Young 
pointed out, we are talking about (c)(3)s. I am holding a 
lawsuit that relates to Z Street. They are trying to get 
organized. They are a pro-Israel group. And I have the 
questionnaire that they were sent. The IRS--they were just 
trying to get 501(c)(3) status, okay, not (c)(4). The question: 
Does your organization support the existence of the land of 
Israel? Describe your organization's religious belief system 
toward the land of Israel.
    It is unbelievable. And you know what is interesting, it is 
pointed out here that in the New York Times, a senior State 
Department official was talking about some of the charitable 
groups active in the Middle East, and he said that the funding 
for these groups is a problem because it is unhelpful to the 
efforts we are trying to make. Is there a connection? I don't 
know. But it is outrageous that they would ask these sorts of 
things of groups.
    You know, you heard some other Members quote the 
investigation of the Inspector General. I would point out, as 
some others have, it was an audit. There were no emails 
requested, no depositions. It just scratched the surface. And a 
lot of people love to cite it. Well, they didn't cite the fact 
that it said that conservative groups were targeted. That is 
why you are here. It is not a debate over the law. It is the 
fact that some groups were given a pass, and some groups 
weren't. That is what this is all about. Despite the fact that 
some people say, oh, it is about terminology, or we haven't 
given them the right terms. Do you really need training to know 
that you don't ask Americans what they are praying about? I 
mean, seriously, do you really need training to know that you 
don't approach a group and try to get a deal that they won't 
protest Planned Parenthood? It is unbelievable. If you have to 
write that type of stuff in the statute, then we are just out 
of luck, folks. That is just common sense.
    You know, I think this is another great argument for tax 
reform. If you want to reduce the abuse and the power of the 
IRS, we need to reduce the complexity of the Tax Code that they 
enforce every day.
    I would just say, in closing, that I would encourage you to 
explore all of your options against this government. I would 
encourage you to look at 42 USC 1983, which allows you to sue 
when your rights have been violated, particularly your First 
Amendment rights. I would just encourage you--obviously, you 
have your own lawyers. But when citizens are treated the way 
you have been, I think you ought to use every tool that you can 
to hold this government accountable. We are going to do our job 
here. But this is a Federal Government that agency after agency 
after agency is out of control. And I appreciate your being 
brave and being here today. Thank you.
    Chairman CAMP. Thank you.
    Mr. Renacci.
    Mr. RENACCI. Thank you, Mr. Chairman.
    I wanted to get back and make sure that I thanked every one 
of you for being here.
    Again, I practiced in the business world for almost 30 
years before I came here--I have only been here for 2 years--
and I also had a CPA profession. So I had to sit in front of 
those IRS agents with clients, or I had to get the letter from 
that individual that you all received from the IRS. And I have 
to tell you, it is appalling, not only what I heard in some of 
your testimony and what the IRS did, but I have to tell you, 
they don't treat--I mean, I sat in many, many situations with 
the IRS, and they never seemed to care. I mean, their 
timelines, it is amazing how long they made you all wait. It is 
just appalling that this government allows that to happen.
    One thing that is kind of interesting for me as a business 
guy, when I took over a bad business, it would have been the 
easiest thing in the world for me to blame the guy who 
appointed the manager of the company before I took it over. 
Quite frankly, we had to fix the problem and move forward. So 
when I hear people say, well, this was a Bush appointee, or 
whatever, I always say, isn't it amazing? I mean, we should be 
actually talking about how we fix the problems, whoever is 
there. And as leaders, we should be taking responsibility to 
make sure those problems are fixed.
    Now, I have to tell you, we had testimony 2 weeks ago from 
Acting Commissioner Miller. He seemed more interested in 
providing excuses. I heard him, I don't know how many times, 
say, ``I don't know''--and we continue to hear that out of the 
agency. Can you imagine if you would have answered your 
questions, ``I don't know,'' what would have happened to you? I 
mean, I know. I mean, you wouldn't have gotten--of course, you 
didn't get very far that quick with answering properly. But I 
don't know whether they would have just thrown your application 
away. But yet we have the Acting Commissioner in here 2 weeks 
ago answering I don't know. And he gave half-hearted apologies.
    But I found it appalling and was disturbed with many of his 
responses. And I would wonder, as victims of many of these 
actions--and I would consider them illegal--do you believe 
these actions by the IRS to you were illegal? And I would like 
to just hear each one of your thoughts. And I know ``illegal'' 
is a strong word, but I would like to hear what your thoughts 
are.
    Mr. KOOKOGEY. Oh, it is absolutely illegal. When the 
government uses the IRS for political purposes--remember, this 
was part of the Articles of Impeachment in the Nixon 
Administration before he resigned--it is a serious matter. And 
it is clearly illegal to single us out for disparate treatment 
based on our political views.
    Ms. BELSOM. Yes, I agree with what he said.
    Mr. EASTMAN. Chapter and verse 26 USC section 7213(a)(1) 
makes it a felony to disclose confidential tax returns.
    Ms. KENNEY. I agree with everyone here. It was illegal. I 
think it was immoral. I think it was also very un-American.
    Ms. MARTINEK. It is easy for me. Our attorney, Sally 
Wagonmaker, said yes, it is very illegal, so----
    Ms. GERRITSON. I agree.
    Mr. RENACCI. Thank you. I will tell you this; one thing 
they will say about me if you go back over my record, I was a 
fighter, and I believed in fighting with my clients. So I 
appreciate you being here. I appreciate you fighting. Don't 
ever quit. And if you ever need someone to stand beside you, 
give me a call. I appreciate it.
    I yield back.
    Chairman CAMP. Thank you.
    And last, but not least, Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman.
    Thank you to the panelists. We are coming to the end here, 
and I just wanted to express my sincere thoughts that we stand 
with you.
    I have heard a bunch of my colleagues talk about how 
certain individuals in Washington have been fired as a result 
of this. But let's just be clear. Mr. Miller sat right where 
you were, Mr. Eastman, and when I asked him a question, he had 
not been fired; he had been allowed to retire with full 
benefits and was drawing a paycheck, paid for by the American 
taxpayer, as he tried to answer my questions--and I say 
``tried'' because he wouldn't answer my questions--that 
frustrates me, just as I am sure it frustrates you.
    Then we hear that Lois Lerner, who has taken the Fifth, is 
now allowed to go on vacation--I will call it. That is 
accountability in Washington, D.C. That, to me, is 
unacceptable.
    What I wanted to leave you with today--and Ms. Gerritson, 
you said it in your statement, and I appreciate the heartfelt 
nature of your statement--is that a lot of people in Washington 
forget who they work for. They work for you, not the other way 
around. That is the culture of abuse of power that I see in the 
IRS.
    I want to hear from you how that makes you feel, the fact 
that there really hasn't been any accountability as of yet. And 
what would you ask us--me specifically, as a Member of this 
panel--to do, to make you feel that justice has been served?
    Ms. GERRITSON. Well, I think it will take a lot for the 
American people to ever trust the IRS just because of the 
nature of the agency. The IRS has always been a scary agency. 
But what I would ask is, like so many of you have already 
committed, to do a full investigation, follow through on every 
lead. Don't stop until you get to the bottom of this. We need 
to rid this cancer. So just do what it is that you need to do, 
and we will be here to hold you accountable to do that.
    Mr. REED. Well, I appreciate that because if we don't do 
that, one of the things I am concerned about with my colleagues 
on the other side of the aisle, if we don't get to the bottom 
of it, you have already heard--I listened to the testimony of 
each and every one of you. We have already heard the chilling 
effect of what the IRS has done. You talked about the fact that 
some of your pamphlets I believe weren't produced. Mr. Eastman, 
you talked about donors shying away from going on and giving 
donations to your organization. That is a chilling effect. And 
if we don't hold this community, this city accountable, where 
do you think it is going to go? Do you think it is going to get 
worse, or do you think it is going to get better? Would you 
advise us to just sit silently by and do what so many elected 
officials have done before, in my opinion, say, oh, there is a 
problem; we have to change the law to make sure it never 
happens again? You know what, we need to enforce the law that 
is on the book.
    You point out the fact that this is a felony, Mr. Eastman--
a felony. That is equivalent to who? Murderers are felons. 
Robbers are felons. The law has been declared that we are going 
to hold this type of behavior accountable to the level of the 
seriousness of a felony, and yet what we have heard so far is, 
oh, it was inadvertent; it was a mistake. Does that make you 
feel better? Does that make you feel better that that is the 
standard that we are going to potentially live with as the 
accountability measure for us in Washington?
    Mr. EASTMAN. When the claim is so divided and apart from 
what we know to be the truth, it doesn't make me feel better at 
all.
    Mr. REED. I would also just like to--and I want to end with 
your words on this. You are the individuals that have stood up 
and have come here, and you said you are not going to be 
silent. And I applaud that. But how many of your colleagues do 
you think are similar to the ones that came up to me during the 
week when I was back home working the district that said, Hey, 
you know, I want to tell you what happened to me, but don't use 
my name? How many do you think are out there? Do any of you 
want to hazard a guess as to what that number is?
    Ms. Kenney.
    Ms. KENNEY. Just last week I had one of our attendees say, 
``Please, take my name off the email; I am afraid.''
    There is a lot of language here about people going in and 
out of the shadows. The citizenship ticket in this particular 
place, with this issue, should be the rule of law; nothing 
more, nothing less. Please go where these facts lead you.
    Mr. REED. Does anyone want to hazard a guess? Do you think 
thousands; tens of thousands; hundreds of thousands? There are 
300 million plus Americans watching this on TV. Do you think 
that many Americans, with the busy lives they have, are going 
to say, ``Oh, yeah, that is what I want to do with my free 
time?''
    Mr. EASTMAN. The prospect of challenging the IRS and having 
your last 10 years of tax returns gone through with a fine-
tooth comb is chilling for many Americans. I, for the first 
time, bought Audit Defense when I filed my Turbo Tax tax 
returns this year. This is scary.
    They always say, ``Don't fight city hall.'' But at some 
point, you have to stand and fight, or city hall is no longer 
what it is supposed to be.
    Chairman CAMP. Thank you. Time has expired.
    I have been made aware another Member seeks recognition.
    Mr. Crowley is recognized.
    Mr. CROWLEY. I thank the Chairman.
    I am sorry I had to step out for quite a bit. I missed a 
few of the statements, and one in particular by one of my 
colleagues.
    Let me start by saying to the witnesses, each and every one 
of you, you are all victims here. You and so many other groups, 
conservative and progressive alike, targeted by the IRS are the 
victims. And to say otherwise is wrong, and it is not 
representative of the Democratic Party as well.
    As the Chairman noted in an email he sent out yesterday, 
the outrage at what is occurring at the IRS is shared by 
Republicans and Democrats alike.
    Second, while I welcome the witnesses, I would like to 
highlight the fact that the Minority party is typically allowed 
to invite one witness to each hearing. We did not invite a 
witness to this hearing. That is not because progressive groups 
were not targeted by the IRS; they were. In fact, the TIG 
report looking into this targeting documented that fact. I 
would like to submit for the record this list of dozens of 
progressive groups who were inappropriately targeted alongside 
Tea Party groups by the IRS.
    Chairman CAMP. Without objection.
    [The first submission of The Honorable Joe Crowley 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                       ________________
                       
    Chairman CAMP. And I would say to Mr. Crowley, as I said to 
Mr. Kind earlier, the Minority did not identify any witnesses 
that had been targeted by the IRS, but were certainly given the 
opportunity to do so.
    Mr. CROWLEY. Mr. Chairman, I am still making my statement.
    Chairman CAMP. That is correct----
    Mr. CROWLEY. So I think I will clarify my point right now, 
Mr. Chairman.
    Chairman CAMP. You may continue.
    Mr. CROWLEY. Rather, instead of making this about 
ideological groups, we Democrats want to make this hearing 
about the facts and how we prevent this targeting from 
happening again.
    Whether it be the targeting of progressive or conservative 
groups, and everyone else in between, although the members of 
the groups testifying today might never vote for me if I was on 
their ballot, I want each and every one of them to know, as a 
Congress, we collectively represent you.
    As many may recall, I asked Lois Lerner of the IRS Tax 
Exempt Office about whether the IRS was politically targeting 
groups 2 days before she and the IRS came clean to the world 
and admitted the agency was in fact screening on ideological 
grounds. Many have asked me why I asked Ms. Lerner about this 
matter before the public awareness or outrage took place. The 
reason is no American should be targeted by the government for 
their personal views. And I wanted to get to the bottom of the 
rumors that had been circulating for some time that the IRS was 
in fact, once again, targeting certain individuals.
    Unfortunately, this is not the IRS' first time mixing up 
its mission with its personal politics. Starting in 2002 and 
2004, under then President Bush, the IRS went after progressive 
Christian churches, the NAACP, and environmental groups, and 
its actions are as wrong today as they were in 2004. While I 
don't recall the same bipartisan outrage existing then as I 
believe it does today, it should have. Because no agency has 
the right to target or discriminate based on political 
ideology.
    So I do want to correct the record on a few matters. Some 
of my Republican colleagues have been working overtime to try 
to paint this as a political conspiracy by the White House. 
There is no evidence tying this to the White House. In fact, 
the IG's report makes that clear.
    At our most recent hearing on this topic, the Treasury 
Inspector General, who was appointed by President Bush, 
testified that no officials at either the Treasury Department 
or the White House were involved or knew of anything about the 
targeting. The same Inspector General, under questioning from 
Congresswoman Lynn Jenkins, said that he would have questioned 
and investigated senior Treasury Department and any Obama 
Administration official if he thought they were involved. But, 
again, he testified under oath that they were not involved. I 
would like to submit the discussion between Ms. Jenkins and the 
Treasury Inspector General into the record.
    Chairman CAMP. Without objection.
    [The second submission of The Honorable Joe Crowley 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                       ________________
                       
    Mr. CROWLEY. And it was the same Inspector General who 
notified Congressional Republicans, including Chairman Darryl 
Issa, of his investigation into political targeting of groups 
by the IRS in the summer of 2012, months before the 2012 
national elections. I would like to submit the Treasury 
Inspector General's letter to Mr. Issa and the RSC Chair Jim 
Jordan confirming this investigation into the IRS dated July 
11, 2012, into the record.
    Chairman CAMP. Without objection.
    [The third submission of The Honorable Joe Crowley 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                       ________________
                       
    Mr. CROWLEY. Do you really think that if there was evidence 
of political targeting at the highest levels of our government 
during an election year, that Members of Congress, like 
Chairman Issa, would have sat quietly and not brought this to 
the public's attention? I think Chairman Issa's silence speaks 
for itself. He did nothing and said nothing because there was 
no whistle to blow.
    What concerns me is that this is the second chapter in less 
than a decade that the IRS has been caught going rogue. They 
went rogue in 2002, 2004, when they inappropriately targeted 
churches, religious groups, and the NAACP.
    Mr. Chairman, I think the record speaks for itself. There 
is no smoking gun. What happened to these Americans is 
intolerable and ought not to have happened, whether it be 
progressive or conservative groups. The actions of the IRS, be 
they from a Democratic side or Republican side, a Republican 
Administration or a Democratic Administration, should never be 
tolerated, never be tolerated.
    I yield back the balance of my time.
    Chairman CAMP. Thank you.
    I want to thank the witnesses for coming forward today. It 
is not an easy thing to do to sit through a congressional 
hearing and answer questions from a whole variety of 
perspectives and Members. But I want to tell you how impressed 
I am with the answers that you gave and the quality of your 
testimony. I am also impressed with your moral conviction, the 
perseverance and the courage you have shown by being here today 
and representing so many other Americans who are equally 
affected.
    You have helped the Committee a great deal, but more 
importantly, you have helped the American people a great deal 
and you have helped the Nation a great deal, and I thank you 
very much for that.
    With that, this hearing is adjourned.
    [Whereupon, at 1:30 p.m., the Committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
